<html>
<title> - THE MERIDA INITIATIVE: EXAMINING UNITED STATES EFFORTS TO COMBAT TRANSNATIONAL CRIMINAL ORGANIZATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   THE MERIDA INITIATIVE: EXAMINING UNITED STATES EFFORTS TO COMBAT 
                  TRANSNATIONAL CRIMINAL ORGANIZATIONS 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2008

                               __________

                           Serial No. 110-120

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                        U.S. GOVERNMENT PRINTING OFFICE 

44-011 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























































                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)









































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2

                               Witnesses

Mr. Paul Rosenzweig, Acting Assistant Secretary, Office of 
  International Affairs and Deputy Assistant Secretary for 
  Policy, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. David T. Johnson, Assistant Secretary of State, Bureau of 
  International Narcotics and Law Enforcement Affairs:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14

                                Appendix

Questions From Honorable Loretta Sanchez.........................    35


THE MERIDA INITIATIVE: EXAMINING UNITED STATES EFFORTS TO COMBAT TRANS- 

                    NATIONAL CRIMINAL ORGANIZATIONS

                              ----------                              


                         Thursday, June 5, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:13 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Lofgren, Langevin, 
Cuellar, Green, Souder, Reichert, and McCaul.
    Ms. Sanchez. The subcommittee will come to order. The 
subcommittee is meeting today to receive testimony on the 
``Merida Initiative, Examining U.S. Efforts to Combat 
Transnational Criminal Organizations.'' It is my pleasure to 
welcome you all to this timely hearing on the recent 
developments in combating transnational organized crime.
    This hearing will give us a forum to examine the efforts, 
goals and the possible implementation of the Merida Initiative 
and its role in reducing crime and drug trafficking in Mexico 
and in Central America. I look forward to receiving testimony 
from our two witnesses, hearing what their departments are 
doing with respect to the rise of transnational crime and their 
role in the Merida Initiative.
    Recently, the United States has seen a rise in the 
operations of sophisticated crime organizations that have 
little regard for law enforcement and for our border officials. 
We have seen this trend across the country, including in my 
district in Orange County, California. More often than not, 
these organizations maintain ties and structured operations in 
multiple countries. With the increase of violence from drug 
cartels on the Mexican side of the border in places like 
Tijuana and Ciudad Juarez, it is appropriate to be concerned 
about how this is affecting our citizens here in the United 
States.
    Many drug cartels contract out to transnational gangs such 
as Mara Salvatrucha and the 18th Street Gang to smuggle drugs 
and people into the United States and to smuggle weapons and 
ammunition out of the United States. These smuggling operations 
work through an intricate network of corrupt officers and 
secure smuggling routes on both sides of our border.
    The Merida Initiative proposal was developed to stop these 
operations by implementing comprehensive cross-border 
communication and collaboration. Interagency cooperation among 
and inclusion of all agencies that work on our borders and with 
foreign governments is essential for the success of this 
proposal.
    Our area of particular concern is ensuring that gang and 
drug cartel members who are deported from the United States do 
not continue their criminal behavior once they return to their 
home countries or worse, that they come back once again into 
the United States to continue their work.
    We must be able to coordinate with foreign authorities to 
ensure that these criminals are not allowed to go back into 
their local populations. We also need to prevent them from 
organizing further criminal efforts with their cartel 
counterparts in the United States.
    Coordination from multiple agencies in both countries is 
essential to achieving these goals and it must not be 
overlooked. A concern that this subcommittee has is the 
exclusion of the Department of Homeland Security from many 
important faces of the Merida Initiative. Violence in Central 
America and Mexico affects the safety and the security of the 
United States, and the Department of Homeland Security has 
personnel and equipment that can be a resource both on the 
front lines on the United States border and in coordinating 
with local levels in these foreign countries.
    This committee would like to see a commitment from all 
involved agencies that communication and collaboration are and 
will continue to be on the forefront of this initiative.
    Once again, I thank our witnesses for being here today. I 
look forward to your testimony and to receiving your answers to 
Members' questions. I will now yield to my Ranking Member, my 
good friend from Indiana, Mr. Souder, for his opening 
statement. Thank you.
    Mr. Souder. Thank you, Madam Chair. In 2007, over 36,000 
pounds of cocaine, 2,906 pounds of meth and 2.4 million pounds 
of marijuana were seized along the southwest border at our 
ports of entry by the border patrol. In fact, just 2 weeks ago, 
one of the biggest busts in Indiana history was made in my 
district, came across at Laredo. There is a crisis at our 
borders. It is critical that the United States move forward 
without haste to gain control of our borders, to deter, detect 
and respond to all illegal activity.
    The consequences of the continued vulnerability along the 
border are clearly evident in the violence, crime and drug-
related death rates throughout the United States. In an effort 
to address this growing threat, the administration proposed an 
aid package to Mexico and Central America in October 2007 
referred to as the Merida Initiative.
    The Department of Homeland Security will play a critical 
role in carrying out the Merida Initiative, and I was pleased 
to learn that Chairman Thompson placed a request with the 
Speaker for the Committee on Homeland Security to have 
sequential referral on the Merida Initiative authorizing 
legislation moving through Congress, H.R. 6028. I believe this 
is an issue that the committee can work together to enhance 
this bipartisan legislation. While I believe that there is much 
more work that needs to be done to secure our borders, I think 
that the Merida Initiative offers an historical opportunity to 
partner with Mexico and Central America and to work together on 
securing the region from drug traffickers.
    Since 9/11 we have spoken about the need to push our 
borders out and to look for opportunities to detect threats 
before they reach the United States. The Merida Initiative is 
part of that philosophy and with appropriate controls and 
oversight, could be a significant force multiplier in the 
counternarcotics fight and assist in securing the borders.
    I would like to thank the witnesses for being here today. I 
look forward to hearing from the Departments of State and 
Homeland Security on what they hope to achieve through Merida 
and how the progress will be monitored and how the partnership 
can help bolster security, especially in Mexico, at a time when 
violence directed at law enforcement is at an all-time high. I 
am especially interested in gaining better understanding of how 
DHS is involved in Merida and what impact this will have on 
resources. While I am excited to discuss the Merida Initiative, 
we must understand that Merida alone will not secure our 
border. We must continue to provide adequate resources and 
enforcement tools to U.S. law enforcement agencies while 
working hard to secure our homeland.
    To that end, I look forward to participating next week with 
my partner Mr. Cuellar to the rollout of the ICE Operation 
Armas Cruzadas to address cross-border weapons smuggling. These 
guns often end up in the hands of the drug cartels, elevating 
the level of violence along the border and within Mexico. I 
would like to take a moment to express appreciation for the 
actions taken in Mexico by the Calderon administration over the 
past 18 months to disrupt drug trafficking organizations and 
corruption.
    Often Mexico only gets criticism it seems in the United 
States and it is important that we praise the initiatives of 
the Calderon administration. Since President Calderon entered 
office in 2006, Mexico has allocated more than $6.5 billion to 
combat drug trafficking and increase public security. What is 
really important politically for Americans to understand is it 
is largely our drug problems that have caused the violence in 
Mexico and I am really pleased that the Mexican government have 
taken these risks and taken this leadership to try to address 
it as it transits through Mexico headed to the United States.
    In 2007, Mexico seized a record 50.7 tons of cocaine worth 
more than $7.6 billion in street value. In addition, Mexico has 
extradited a record 93 criminals to the United States since 
January 2007 including three drugpins and a former Mexican 
Governor. These successes have sparked an increase in border 
violence as smugglers have become more desperate in their 
attempt to smuggle these narcotics that are moving through 
Mexico and coming into the United States. Also, it is important 
that we recognize the sacrifice of Mexico's law enforcement 
officers, military personnel and the citizens of Mexico who 
continue to be targeted by ruthless drug trafficking 
organizations.
    More than 400 military and law enforcement officers and 
2,650 civilians have been killed in drug-related murders. We 
are also seeing an alarming increase in violence targeted at 
U.S. law enforcement along the border. By lateral cooperation, 
the war on drugs is at an all-time high. The Merida Initiative 
may be the best way to strengthen the relationship with our 
regional partners. I look forward to working and hearing from 
our witnesses about how the Merida Initiative will help secure 
our borders and reduce illegal drugs entering into our country. 
Thank you, Madam Chair. I yield back.
    Ms. Sanchez. Other members of the subcommittee are reminded 
that under committee rules, opening statements may be submitted 
for the record. Now I welcome our panel of witnesses. Our first 
witness, Mr. Paul Rosenzweig serves as Acting Assistant 
Secretary for International Affairs and Deputy Assistant 
Secretary for Policy at the Department of Homeland Security. He 
has previously served as Acting Assistant Secretary for Policy 
Development and counselor to the Assistant Secretary for 
Policy. Prior to joining the Department, he served as senior 
legal research fellow in the Center for Legal and Judicial 
Studies at the Heritage Foundation.
    Our second witness, Mr. David T. Johnson, was sworn in as 
Assistant Secretary for the Bureau of International Narcotics 
and Law Enforcement Affairs on October 31, 2007. Prior to this 
appointment, he served as deputy chief of mission for the U.S. 
Embassy in London from August 2003 until July 2007. Mr. Johnson 
entered the foreign service in 1977. Without objection the 
witnesses' full statements will be inserted into the record.
    I will ask the witnesses to summarize their statements for 
5 minutes beginning with Assistant Secretary Rosenzweig.

   STATEMENT OF PAUL ROSENZWEIG, ACTING ASSISTANT SECRETARY, 
OFFICE OF INTERNATIONAL AFFAIRS, AND DEPUTY ASSISTANT SECRETARY 
          FOR POLICY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Rosenzweig. Thank you very much. It is indeed a great 
pleasure to be before this committee today and it is an honor 
to be here to able to articulate for you why the Department of 
Homeland Security supports the Merida Initiative and to lay out 
for you some of the unique competencies DHS brings to the table 
for this important undertaking.
    Before discussing the Merida Initiative, we must, I think, 
begin by acknowledging the violent and dangerous backdrop to 
this hearing. In Mexico, drug cartels are waging war. These 
drug cartels kill with impunity killing not only members of 
competing cartels, but also the police and military who protect 
Mexican citizens from crime and ensure a strong an economically 
viable Mexico.
    Parts of Central America have become a transit zone for 
human, arms, money and narco traffickers. Transnational 
criminal organizations take advantage of circumstances where 
governments that may otherwise have the political will to 
counter transnational criminal activity lack the resources to 
do so. Neither this criminal phenomenon nor the violence that 
follows recognizes borders. The United States suffers from gang 
violence, crime and the trafficking of both people and 
narcotics with causes and effects across the border.
    This is further compounded by the fact that the same 
activities used to fund criminal organizations and move 
contraband can and may be used by terrorists to fund their 
activities and to move dangerous weapons and people. Indeed, 
the threat posed by transnational criminal organizations in 
this region is as multifaceted and as dangerous as any this 
Nation has faced. This regional violence has become a border 
integrity issue, and the Merida Initiative is the U.S. 
Government's response to the regional crime, violence and drugs 
that are crossing our borders. Merida is, of course, a 
multinational multi-agency effort with many facets. It 
represents at an historic opportunity to transform our regional 
security cooperation and is a significant effort to confront 
the threats of organized crime that affects Mexico, Central 
America and the United States. Our partners south of the border 
have called for assistance, and that call must be answered.
    Let me speak a little bit about what DHS can contribute to 
answering that call. In the Merida Initiative, if adopted by 
Congress and if funded, we offer many opportunities for 
assistance through immigration and Customs enforcement, CBP, 
Customs and Border Protection and the Coast Guard, we are 
charged with primary responsibility and authority of 
interdicting and investigating the vast majority of cross-
border criminal activity.
    While we have a number of programs that already are in 
place, many of which are in my testimony which complement the 
Merida Initiative, if adopted, the Initiative will allow us to 
engage in even more significant ways.
    For example, the Merida Initiative will tap into CBP's 
border security expertise. Through the Merida process, we are 
exploring the possibility of helping to procure and then train 
our counterparts in multiple countries on the effective use of 
nonintrusive inspection equipment. Through this effort, we are 
fulfilling the unique CBP responsibility of helping to defend 
the front lines on the front against transnational crime.
    Another CBP program, the analysis of Advanced Passenger 
Information System, helps through the collection and analysis 
of passenger information to detect and interdict those 
individuals who may pose a law enforcement, immigration or 
national security risk as they travel in the air transit 
system.
    Through this arrangement under Merida, Panama would be 
targeted for a pilot program in which we would assist them in 
the analysis of API data and allow us to then provide targeted 
information and assistance directly back to Panamanian law 
enforcement agencies and train them in how to do this 
themselves. ICE equally offers the development of a fully 
operational multidisciplinary set of programs, including the 
training of vetted units that work with our government law 
enforcement agencies to interdict narcotics and trade, illegal 
trade along the border.
    If funded, Merida would allow ICE to provide participating 
governments with training and equipment for the establishment 
of bulk currency smuggling units, BCSUs.
    With the purchase of maritime surveillance aircraft for the 
Mexican Navy, the U.S. Coast Guard would also contribute to the 
Merida Initiative. By increasing the interoperability of the 
Mexican Navy's maritime surveillance aircraft with our own, we 
are proposing to purchase for them the same platforms that our 
Coast Guard uses, ensuring that if operational, there will be 
full interoperability and ability to communicate in both 
tactical and operational ways.
    Our US-VISIT Program would, in conjunction with CBP and 
ICE, be positioned to assist the Mexican National Migration 
Institute, INAMI, to develop its integrated system for 
immigration operations through sharing our information on 
biometrics and technology. In short, we have an active role to 
play in the development of the Merida Initiative. Merida is, as 
I said, the U.S. Government's attempt to partner with foreign 
governments to increase regional security by fighting cross-
border and organized crime.
    We are a strong advocate of the Merida Initiative and the 
interagency process that has developed it. We have been 
involved in all aspects of the planning and will continue to be 
so during implementation.
    In conclusion, the Department of Homeland Security fully 
supports Merida because Merida offers us an unprecedented 
opportunity to work closely in partnership with the Calderon 
administration in Mexico and with our other partners in Central 
America, and it will put the security relationship with our 
neighbors to the south on a new and different level that 
ultimately will benefit the homeland security interests of the 
United States. Thank you.
    Ms. Sanchez. Thank you, Secretary.
    [The statement of Mr. Rosenzweig follows:]
                 Prepared Statement of Paul Rosenzweig
                              June 6, 2008
    Chairwoman Sanchez, Ranking Member Souder, and Members of the 
committee: It is an honor to submit this testimony to articulate why 
the Department of Homeland Security (DHS) supports the Merida 
Initiative and to lay out the unique competencies that DHS brings to 
the table for this important undertaking.
the impact of transnational criminal organizations on regional security
    Before discussing the DHS vision of the Merida Initiative, there 
must be an acknowledgement of the violent and dangerous backdrop to 
this hearing. Nearly every day, media outlets report on the activities 
of transnational criminal organizations operating in Mexico and Central 
America: whether it is the assassination of the Acting Chief of Mexican 
Federal Police, or gang violence organized from within a prison and 
directed against persons in the United States, Mexico and Central 
America are beset by thugs and criminals intent on pursuing their own 
ideological or financial gains at the expense of everyone else.
    In Mexico, drug cartels are waging wars against each other and 
those attempting to stop their illicit activities. These drug cartels 
kill with impunity; killing not only members of competing cartels, but 
also police officers and members of the military who are attempting to 
protect Mexican citizens from crime and ensure a strong and 
economically viable Mexico. The administration of Felipe Calderon has 
taken very serious and courageous steps to combat this violence and to 
stem the drug trade which fuels it.
    Parts of Central America have become a transit zone for human, 
arms, money, and narco-traffickers. Transnational criminal 
organizations take advantage of circumstances where governments that 
may otherwise have the political will to counter transnational criminal 
activity, lack the resources to do so. In some cases, these governments 
have been infiltrated by criminals resulting in corruption and inaction 
that puts the very security of the region at risk.
    It is also increasingly the case that cross-border criminal 
organizations recognize that routes used to traffic narcotics and 
people northward can also be used to traffic guns and bulk cash 
southward. The result has been a surge in crime in the region and a 
wave of violence that is shocking.
    Neither this criminal phenomenon, nor the violence that follows, 
recognize borders. Accordingly, the United States suffers from gang 
violence, crime, and the trafficking of both people and narcotics. 
According to Immigration and Customs Enforcement (ICE) statistics, 
since 2005, ICE agents across 100 field offices, working in conjunction 
with hundreds of Federal, State and local law enforcement agencies 
Nation-wide, have arrested over 7,000 street gang members and 
associates, representing over 736 different gangs. These apprehensions 
include over 2,500 criminal arrests and nearly 5,500 administrative 
immigration arrests. One hundred sixteen of those arrested were gang 
leaders. More than 2,500 of the arrested suspects had violent criminal 
histories. Through this initiative, ICE has also seized and removed 
over 300 firearms from the streets.
    Major Mexican drug trafficking organizations maintain a working 
relationship with U.S.-based gangs, particularly in California and 
Texas. The threats that cross-border criminal groups pose to the United 
States and the region is further compounded by the fact that the same 
activities used to fund criminal organizations and move contraband 
could possibly be utilized by terrorists to fund their activities and 
move dangerous weapons and people. Indeed, the threat posed by 
transnational criminal organizations in this region is as multi-faceted 
and dangerous as any this Nation has faced.
    This regional violence has become a border integrity issue, and the 
Merida Initiative is the U.S. Government's response to the regional 
crime, violence, and drugs that are crossing our borders. The Merida 
Initiative is a multinational, multi-agency effort to combat 
transnational organized crime by increasing each country's capacity to 
maintain security. As such, the Merida Initiative becomes part of the 
solution to these problems inasmuch as it enhances work with regional 
partners to counter these threats. President Bush has said that we have 
a shared responsibility to confront transnational criminal 
organizations and the Merida Initiative represents this shared 
responsibility.
    rationalization of the merida initiative to bring stability and 
                         security to the region
    Though more time could be spent describing the dangerous situation 
to our South, this testimony will focus on why DHS supports the Merida 
Initiative and how DHS can contribute to this important partnership.
    The Merida Initiative represents an historic opportunity to 
transform regional security cooperation for the benefit of all and is a 
significant effort to confront the threat of organized crime that 
affects Mexico, Central America, and the United States. The Merida 
Initiative seeks to integrate security from the U.S. Southwest border 
to Panama and strengthen our partners' capacities in three broad areas: 
(1) Counter-Narcotics, Counterterrorism, and Border Security; (2) 
Public Security and Law Enforcement; and (3) Institution Building and 
Rule of Law. The purpose of the Merida Initiative is to support the 
efforts already undertaken by our southern neighbors to end the scourge 
of violence, gangs, and drug trafficking that plagues their citizens 
and spills over into the United States.
    Rather than simply giving money to foreign governments, the Merida 
Initiative has been tailored to provide our foreign partners with the 
specific tools they each need to fight transnational organized crime 
and work cooperatively with the United States. Through a robust 
interagency working group, which facilitated discussions with Mexico 
and Central American officials and coordination with U.S. Government 
officials in those countries, interagency subject matter experts 
assessed the needs of each country and proposed specific items to aid 
those countries efforts against cross-border criminals.
    DHS views the Merida Initiative as a vehicle to facilitate 
cooperation and capacity building between the U.S. Government and our 
partners in the Western Hemisphere. From the DHS perspective, the 
Merida Initiative is an opportunity to more fully engage our regional 
counterparts and more cooperatively work together to deter and 
dismantle cross-border criminal organizations and the threats they 
pose. By working with regional partners on regional initiatives, DHS 
multiplies the effectiveness of its own border security efforts and 
helps the United States, over the long-term, develop sustainable 
security partnerships. In this sense, DHS sees the Merida Initiative as 
a step forward in homeland security and a significant piece of a 
comprehensive national security plan. DHS recognizes that a regional 
effort--which involves multi-national cooperation--is ultimately 
required to ensure the security of our homeland. The United States will 
be most secure when the entire region is secure.
    DHS has been an integral part of the Merida Initiative because 
border security and protection is part of our mandate. The Merida 
Initiative rightly complements existing security strategies that are 
owned by DHS, mention DHS expressly, or have goals that parallel DHS's 
mission. DHS is charged with the responsibility to protect the 
homeland: to control and protect the U.S. border; to investigate border 
violations; and to ensure the legal flow of goods and people--among the 
same aims of the Merida Initiative.
    For example, the National Strategy for Homeland Security places 
significant emphasis on limiting the illicit flow of people and all 
types of contraband, including drugs, through or between our ports of 
entry. The Merida Initiative provides funding to improve our partners' 
ability to harden their own ports of entry through training and 
equipment that increases their capacity to identify and confiscate 
contraband. Also, the National Strategy for Homeland Security 
emphasizes the need to protect critical infrastructure. Again, the 
Merida Initiative has funding set aside for critical infrastructure 
improvement. Later, my testimony will outline some of the specific 
programs that are part of the Merida Initiative proposal which directly 
connect to DHS missions and operational expertise, but these general 
examples serve to illustrate how closely the aims of the Merida 
Initiative mirror DHS missions.
    In a similar fashion, Central American leaders convened and 
participated in the U.S.-Central American Integration System (SICA) 
Dialogue on Security in July 2007. In this meeting, Central American 
ministers identified gangs, drug trafficking, and trafficking of arms 
as their most pressing security concerns. Later, the SICA group issued 
its regional security strategy which identified the transnational 
threats that Central American governments mutually agreed were most 
pressing and against which they were committed to undertake joint 
action. From its inception, the Merida Initiative was tied directly to 
the SICA strategy, thus building on the articulated will and 
initiatives of Central American leaders. Many of the issues identified 
by SICA are issues within which DHS has a responsibility.
    The Merida Initiative also runs parallel to other U.S. Government 
strategies, like the National Southwest Border Counter-Narcotics 
Strategy, which outlines U.S. efforts to improve coordination of law 
enforcement activities both within the U.S. Government and with 
international partners, and in which DHS plays a substantial role.
    DHS will also play a substantial role in many aspects of 
implementation of the Merida Initiative if funded. Through U.S. 
Immigration and Customs Enforcement, U.S. Customs and Border Protection 
(CBP), and the U.S. Coast Guard (USCG), DHS is charged with primary 
responsibility and authority when it comes to the interdiction and 
investigation of the vast majority of cross-border criminal activities 
(including trafficking in arms and people), has significant 
responsibility with regard to drugs, and serves as the clearinghouse 
for issues related to border security enhancement. The Merida 
Initiative's ultimate end goal is to increase the security of our 
homeland by increasing the security of the region. In that light, given 
that all programs within DHS share the goal of improving homeland 
security, nearly every DHS program in some way complements or enhances 
the programs of the Merida Initiative.
    As an example of how closely DHS efforts mirror the aims of the 
Merida Initiative, the following is a sampling of DHS efforts that are 
connected directly to the Merida Initiative.
Border Enforcement Security Task Force (BEST)
    The Border Enforcement Security Task Force (BEST) program was 
proposed in 2005 as the Department of Homeland Security's approach to 
combat cross-border criminal activity and violence along our southern 
border with Mexico. In 2006, Secretary Chertoff adopted the BEST 
initiative to bring together Federal, State, local and foreign law 
enforcement resources in an effort to identify, disrupt, and dismantle 
organizations seeking to exploit vulnerabilities along the southern 
border and threaten the overall safety and security of the American 
public. ICE, CBP and DHS' Office of Intelligence and Analysis (I&A) 
personnel work cooperatively with other law enforcement entities to 
take a comprehensive approach toward combating criminal organizations 
involved in cross-border crimes. One of the primary missions of the 
BEST program is to prevent the illegal exportation of firearms from the 
United States into Mexico, a particular concern of the Mexican 
Government. The Government of Mexico has agreed to assign full-time 
representatives to each of the BESTs.
    The BEST program is one of our most highly successful southern 
border law enforcement programs. In fiscal year 2007, the BESTs were 
responsible for over 500 criminal arrests, over 1,000 administrative 
arrests, 160 indictments, and 77 convictions. The BESTs were also 
integral in the seizure of over 1,300 pounds of cocaine, nearly 50,000 
pounds of marijuana, 150 pounds of methamphetamine, 135 pounds of 
heroin, 237 weapons, 12 improvised explosive devices, 178 vehicles, 
approximately $2.5 million in U.S. currency, and the discovery of two 
cross-border tunnels used to smuggle drugs, arms, and/or persons.
    In an effort to stem the flow of weapons being smuggled illegally 
into Mexico, ICE is also promoting a new initiative utilizing the 
investigative strengths of both the U.S. and Mexican representatives to 
the BESTs in an effort to identify, investigate, and aid the Department 
of Justice in prosecuting those who would seek to illegally export 
weapons to Mexico.
Homeland Security Intelligence Support Team (HIST)
    The DHS HIST was established in the El Paso Intelligence Center 
(EPIC) in the Fall of 2007 to ensure the application of national 
intelligence capabilities to support border operations, to strengthen 
intelligence and information sharing across the Federal, State and 
local partners, and to help ensure that front-line operators have 
access to the intelligence they need to efficiently perform their 
duties. In addition to the deployment of DHS Intelligence professionals 
to EPIC, the DHS Office of Intelligence and Analysis is deploying both 
Reports Officers and classified computer networks to key locations 
along the Southwest border. The purpose is to enhance DHS' ability to 
rapidly and efficiently share critical intelligence with those who need 
it most, and this has significantly increased its analytic focus on 
border security issues to serve the Department of Homeland Security, as 
well as our Federal partners, State, local and tribal stakeholders, and 
the intelligence community at large.
Operation Against Smugglers Initiative on Safety and Security (OASISS)
    Since August 2005, CBP has worked closely with Mexican officials in 
a bilateral alien smuggler prosecutions program called Operation 
Against Smugglers Initiative on Safety and Security (OASISS). OASISS is 
a joint initiative between the United States and Mexico that enables 
both governments to share information and prosecute smugglers for 
crimes committed in the border region. Through OASISS, both governments 
are able to track and record prosecution efforts on both sides of the 
border and work together to make the strongest case against these 
criminals. The intent of the program is to target alien smugglers and 
human traffickers operating in the immediate border region. The OASISS 
program has had a significant and positive impact on operations, and 
has furthered smuggling investigations both in the United States and 
Mexico. Due to current expansion and awareness of the OASISS program, 
the number of cases generated from fiscal year 2006 to fiscal year 2007 
decreased 12 percent, and the number of principals prosecuted decreased 
70 percent during the same time period. As you can imagine, with 
success like this, we are looking to significantly expand this program 
under Merida.
Bulk Cash Smuggling
    ICE has a number of programs to address the problem of bulk cash 
smuggling. One of these--``Operation Firewall''--addresses the threat 
of bulk cash smuggling via commercial and private passenger vehicles, 
commercial airline shipments, airline passengers, and pedestrians 
transiting to Mexico along the southern border. ICE and CBP have 
conducted various Operation Firewall operations with Mexican Customs 
and the Mexican Money Laundering Vetted Unit. ICE hopes to expand 
existing Operation Firewall operations to designated locations in the 
near future, including additional border crossing locations along the 
southern border with Mexico. All significant Operation Firewall 
seizures result in criminal investigations with the goal of identifying 
the source of the funds and the responsible organizations.
    ICE has also recently established a Trade Transparency Unit (TTU) 
with Mexico, located in Mexico City. The mission of the TTU is to 
identify cross-border trade anomalies, which are indicative of trade-
based money laundering. Under this initiative, ICE and law enforcement 
agencies in cooperating countries work to facilitate the exchange of 
import/export data and financial information. The establishment of our 
TTU with Mexico was completed just a few weeks ago. ICE has provided, 
and will continue to provide, Mexico TTU representatives with in-depth 
training on the Data Analysis and Research for Trade Transparency 
System (DARTTS). ICE has already installed the system, has provided 
expert technical support, and will continue to do so as needed. Once 
fully trained, Mexican TTU representatives will be able to use trade 
data to develop criminal targets involved in crimes such as tax 
evasion, customs fraud, and trade-based money laundering. The 
establishment of the TTU in Mexico City will benefit both Mexico and 
the United States in their efforts to combat criminal organizations. 
ICE has TTUs in multiple locations around the world and continues to 
seek new partners.
Firearms Trafficking
    CBP, ICE, the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF), and the Drug Enforcement Administration (DEA) have developed a 
joint strategy referred to as the Southwest Border Trafficking 
Initiative, which aims at identifying and disrupting the illicit cross-
border trafficking of firearms and ammunition. As part of this 
interagency strategy, these organizations have agreed upon broad 
principles to identify, investigate, and interdict the illicit cross-
border trafficking of firearms and ammunition into Mexico. Discussions 
are ongoing to address more detailed procedures regarding the 
coordination of multi-agency operations and information sharing. The 
initiative's strategy is based on three pillars: Analysis of Firearms 
Related Data, Information Sharing, and Coordinated Operations. ATF has 
established the Southwest Border Gun Center in EPIC, which serves as a 
central repository for firearms-related information and intelligence.
    The purpose of the Southwest Border Trafficking Initiative is to 
identify, dismantle and disrupt transnational criminal networks 
responsible for smuggling illegal weapons and ammunition from the 
United States into Mexico, posing a threat to the overall safety and 
security of both countries through seizures and the aggressive 
prosecution of such organizations. The initiative incorporates a vetted 
investigative unit that provides investigative responses to weapons 
seizures at Mexican ports of entry, as well as investigation of related 
border security vulnerabilities. In addition, ICE works in conjunction 
with CBP to facilitate interdiction enforcement operations based on 
intelligence generated through this bilateral initiative.
    In furtherance of this strategy, ICE is initiating Operation Armas 
Cruzadas to combat the smuggling of weapons from the United States into 
Mexico. This initiative aims to facilitate bilateral interdiction, 
investigation and intelligence-sharing activities to identify, disrupt, 
and dismantle cross-border criminal networks that smuggle weapons from 
the United States into Mexico.
Drug Trafficking
    CBP and ICE have significant responsibility in the interdiction of 
illicit drugs as such contraband crosses U.S. borders, whether at ports 
of entry or otherwise. DHS also has the means and expertise to 
investigate these international smuggling organizations, while working 
with our foreign and U.S. counterparts such as the DEA.
Bilateral Strategic Plan
    In August 2007, Mexican Customs, ICE and CBP signed a Bilateral 
Strategic Plan to fight trans-border crime. The Bilateral Strategic 
Plan strengthens cooperation in matters related to law enforcement by 
expanding existing institutional cooperation mechanisms and 
establishing new programs of collaboration designed to fight 
trafficking and smuggling of prohibited goods, fraud, and related 
crimes. The plan establishes four working groups addressing capacity 
building, border management, customs security, and law enforcement. All 
four working groups were formally launched in November 2007. The 
working groups will expand on existing cooperation to coordinate and 
implement joint security initiatives, efficient border management, 
integrity and capacity building assistance and joint enforcement and 
interdiction initiatives. The goal of these efforts is to enhance the 
security of our southern border with Mexico.
Border Violence Protocols (BVP)
    On March 3, 2006, a bi-national action plan to combat border 
violence and improve public safety was signed by Secretary Chertoff and 
his counterpart in Mexico. This action plan set forth goals and 
objectives to ensure the appropriate law enforcement agencies of the 
respective governments work together to provide an effective, 
comprehensive joint response to incidents of cross-border violence and 
crime. In response to this plan, CBP created a headquarters bi-national 
working group to oversee the development and implementation of Border 
Violence Protocols (BVP) along the southwest border. The BVP have now 
been instituted along the entire U.S.-Mexico border and are working 
efficiently and effectively. These protocols serve as a mechanism to 
facilitate operational response to incidents--with CBP, ICE and their 
Mexican counterparts coordinating together. At the local level, the 
BVPs have instituted monthly meetings between the U.S. Government, the 
Federal Government of Mexico, as well as State and local law 
enforcement officials to further develop and strengthen the working 
relationships between both countries. The Border Violence Protocols are 
another example of how the United States and Mexico are working closely 
together to create a safer and more secure border region.
Global Trafficking in Persons
    ICE is working to combat human trafficking by applying its 
expertise to counter this humanitarian and security problem in which 
organized syndicates exploit the vulnerability of the human condition 
to turn a profit. This crime is not limited to our borders, as many of 
the victims are forced to work in brothels and other nefarious 
businesses throughout our country.
    The President's $50 million Trafficking in Persons (TIP) Initiative 
was established in 2003 to assist foreign countries in combating 
trafficking in persons. In furtherance of this initiative, ICE has also 
created a position of Global Trafficking in Persons (G-TIP) Coordinator 
to identify, develop, implement and coordinate these projects under the 
President's Initiative. ICE coordinates--in conjunction with the 
Department of Justice--a G-TIP law enforcement initiative in Mexico 
centered around foreign law enforcement capacity building to include 
TIP/Sex Tourism training, establishing vetted units, rescuing 
trafficking victims, and providing support to prosecutors.
Non-Intrusive Inspection Technology (NII) Training
    CBP employs Non-Intrusive Inspection Technology (NII) technology at 
all land ports of entry. This technology ensures a large percentage of 
conveyances are examined in a non-intrusive manner for contraband while 
permitting the smooth flow of legitimate trade and travel. While it 
would require four officers approximately 4 hours to unload and 
thoroughly examine a commercial conveyance full of cargo for 
contraband, a large-scale NII system can produce X-ray images of the 
conveyance and cargo permitting two officers to conduct an examination 
for contraband in a matter of a few minutes (e.g. 3 to 5 minutes). This 
technology also prevents unnecessary damage to conveyances and cargo 
caused by manual methods and allows the officers utilizing the 
technology to see into areas that otherwise cannot be examined. This 
technology not only ensures contraband does not cross the border but 
also enables us to keep our country safe from weapons of mass 
destruction entering our country. Under the Merida Initiative, we are 
hoping to expand the use of this equipment by the government of Mexico 
in order to expand both countries' interdiction efforts and ensure that 
our border is not the only line of defense against these illicit 
materials.
U.S. Coast Guard
    The USCG has a number of cooperative programs with Mexico and 
Central America in a variety of areas, including port security, search 
and rescue, environmental response, and other programs that often 
involve the Mexican Navy. With regard to enforcement for example, in 
recent months the Coast Guard has seen a significant increase in the 
level of cooperation with the Government of Mexican in obtaining 
authority to stop, board, and search Mexican flagged vessels (or 
vessels claiming Mexican nationality) suspected of drug smuggling. This 
includes recent cases in which the Mexican Government authorized a 
boarding in less than 2 hours. Previously, the Coast Guard had 
encountered extensive difficulties in receiving this authority. 
However, the efforts of our Coast Guard Attache in Mexico City, in 
working with his Mexican counterparts, have greatly contributed to the 
enhanced cooperation and the establishment of a stronger working 
relationship with Mexico on drug smuggling. The United States and 
Mexico's participation in summits with other regional partners, 
exchanges of information about each nation's respective laws applicable 
to maritime drug smuggling, and sharing of experiences in maritime 
counter-drug operations continue to strengthen further the working 
relationship between our two countries.
            the dhs contribution under the merida initiative
    In addition to the list of current DHS programs provided, DHS is 
poised through the Merida Initiative to engage in even more significant 
ways. It is worth highlighting a few specific authorities, 
responsibilities, and competencies that DHS has to offer Merida.
    First, the Merida Initiative has tapped into CBP's border security 
expertise. Through the Merida process, CBP has explored the possibility 
of helping to procure and then train counterparts in multiple countries 
on the effective use of non-intrusive inspection equipment. Through 
programs that provide equipment and training on fixed and mobile 
scanning technology, CBP is filling their unique mandate by helping to 
defend the front lines in the fight against transnational organized 
crime by better equipping counterparts in the detection and 
interdiction of illicitly trafficked contraband.
    Closely tied to this program are CBP's canine units. CBP's Canine 
Enforcement Program is the one of the largest, most diverse, and most 
respected law enforcement canine programs in the country. The CBP 
canine program continues to diversify canine detection capabilities 
needed to combat terrorism, and interdict narcotics and other 
contraband, while helping to facilitate and process legitimate trade 
and travel. Providing optimal defense at and between our borders, CBP 
has the largest number of working dog teams of any Federal law 
enforcement agency in the United States.
    Another CBP program--the Advance Passenger Information System 
(APIS)--helps to manage, through the collection and analysis of 
passenger information, the arrival and processing of persons entering 
the country at its international airports. The purpose is to better 
detect and interdict those individuals that may pose a law enforcement, 
immigration or national security risk to our homeland. Requested Merida 
Initiative money would fund a pilot APIS program in Panama, where that 
country would provide API data to CBP, who would then analyze it and 
give Panamanian law enforcement agencies immediate, actionable 
information regarding an impending attempt of a person of interest (be 
they a gang member, drug dealer, or arms trafficker) to enter or 
transit their country. This pilot program would serve as the basis for 
analyzing the requirements and costs of a viable APIS program in 
Central America and promote information sharing between governments.
    Merida could provide participating governments the requisite 
training and equipment to enable the establishment of vetted Bulk 
Currency Smuggling Units (BCSUs). The vetted BCSUs would be able to 
conduct joint bi-lateral and multi-lateral BCS and cash courier 
interdiction operations in conjunction with the U.S. Government. These 
joint BCSU operations would enable regional intelligence and 
enforcement coordination between the partner nations. Because ICE is 
the only U.S. Government agency investigating Title 31 (which deals 
with cross-border smuggling of bulk cash), it could assist these 
countries in stopping such transnational criminal activities.
    ICE is not a ``single mission'' agency. Instead, they are an agency 
with responsibilities for all immigration and customs violation 
investigations; including human trafficking, arms trafficking, and (in 
cooperation with DEA) drug trafficking. ICE also offers the development 
of fully operational, multi-disciplinary vetted units that work with 
U.S. Government and foreign law enforcement entities to fight the 
multiple threats that face our region. These vetted units complement 
currently established single-focus units by broadening foreign law 
enforcement agencies' investigatory expertise and facilitating the 
capture of cross-border criminals who engage in multiple illegal 
activities. Further, ICE has expertise in assets forfeiture, victim and 
witness protection, and fraudulent document detection/investigations.
    ICE also has a significant footprint internationally. ICE currently 
staffs nine foreign offices--five in Mexico and four in Central 
America--where investigators and analytical support personnel work 
daily with their host country counterparts to address transnational 
criminal threats. Merida would build upon this already established 
relationship to better eliminate these threats before they impact the 
United States.
    Both the USCG and U.S. Visitor and Immigrant Status Indicator 
Technology (US-VISIT) can also contribute toward the Merida Initiative. 
For example, the CASA 235 maritime surveillance aircraft for the 
Mexican Navy were intentionally requested to increase interoperability 
with USCG maritime surveillance efforts and to increase Mexico's 
capacity to patrol its own waters, protect critical infrastructure, and 
protect human life. Through increased operational parity, the 
governments of the United States and Mexico will have a better 
opportunity to work together in these endeavors. The USCG can also play 
a key role in port security improvement projects aimed at decreasing 
the possibility of a terrorist attack at key regional ports.
    US-VISIT, in conjunction with CBP and ICE, can also assist Mexico's 
National Migration Institute (INAMI) in more fully developing its 
immigration database, known as the Integrated System for Immigration 
Operations (SIOM), through sharing expertise on biometric information 
and technology/standards. Additionally, CBP, ICE, and US-VISIT can all 
play a role in helping modernize internal immigration control and 
document issuance processes throughout Mexico.
         coordination and reporting under the merida initiative
    Since President Bush's March 2007 meetings with President Calderon 
in Merida and then President Berger in Guatemala, the Merida Initiative 
has been framed as a partnership: A shared approach to a shared 
problem. On one hand, the Merida Initiative involves the U.S. 
Government partnering with foreign governments to increase regional 
security by fighting cross-border organized crime. However, it is also 
the case that the Merida Initiative represents the partnering of 
various departments and agencies within the U.S. Government to increase 
regional security by fighting transnational organized crime through the 
pooling of their operational expertise and programs. DHS remains a 
strong advocate of the Merida Initiative interagency process. To date, 
DHS has been involved in all aspects of the planning of Merida and will 
continue to be so during implementation.
    In conclusion, the Department of Homeland Security fully supports 
the Merida Initiative. Merida offers us an unprecedented opportunity to 
work closely in partnership with the Calderon administration in Mexico 
and puts our security relationship with our other neighbors to the 
south on a new level to the benefit of U.S. security interests. It is 
DHS' hope that Congress will fully fund the programs that are 
identified and allow DHS to support these countries in their fight 
against transnational criminals.

    Ms. Sanchez. I will now recognize Assistant Secretary 
Johnson to summarize his statements in 5 minutes or less.

 STATEMENT OF DAVID T. JOHNSON, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS

    Mr. Johnson. Thank you, Madam Chairwoman. Madam Chairwoman, 
Congressman Souder, other distinguished Members of the 
committee, I am grateful for the opportunity to appear before 
you to discuss the Merida Initiative because along with 
Secretary Rosenzweig, we believe that confronting these 
challenges requires complementary effort not just on both sides 
of the border, but across our Nation's national security and 
law enforcement agencies. I would also like to express my 
gratitude for the support the Congress has shown for the 
President's request for the Initiative. We are pleased that the 
Congress has included a substantial percentage of the funding 
requested for Merida in the fiscal year 2008 supplemental 
passed by the House and Senate. We look forward to working with 
you as the differences between these two bills result and we 
hope become law.
    Madam Chairwoman, over the past decade, criminal 
organizations have grown in size and strength throughout Mexico 
and Central America. To protect their lucrative and dangerous 
activities, these organizations undermine and intimidate 
government institutions through bribery and violence directed 
at police, politicians, prosecutors and judges. Approximately 
90 percent of the cocaine consumed in the United States 
transits through Mexico. Mexico is a major source of America's 
methamphetamine, heroin and marijuana.
    But since taking office at the end of 2006 Mexican 
President Calderon has taken unprecedented action against drug 
trafficking networks that threaten his own people as well as 
our citizens here at home. He has reorganized the Federal 
police force, deployed military forces to support police 
operations, routed out corrupt officials, and extradited a 
record number of kingpins and other criminals to the United 
States. Over the past several weeks, we have witnessed several 
high-profile assassinations of senior Mexican law enforcement 
officials, including that of the head of Mexico's national 
police outside his home in the capital. These brazen attacks 
strike at the heart of the rule of law. They are clearly 
intended to deter the Mexican government's efforts to confront 
organized crime.
    Madam Chairwoman, in January, I had the opportunity to 
visit Mexico City and then the border in El Paso with 
Intelligence Committee Chairman Reyes. Having served at the 
beginning of my foreign service career as Vice Consulate in 
Ciudad Juarez, I have a special appreciation of the 
opportunities of that border community. On my visit in January, 
I was struck by the palpable concern in El Paso that the 
violence in Mexico could soon spill over into American border 
communities. Indeed, drug trafficking, gang violence and other 
criminal activity in Mexico and Central America are readily 
apparent in communities across our country. These transnational 
threats require transnational solutions. The Merida Initiative 
is our proposal to assist our southern neighbors in their 
confrontation with this threat. This initiative grew out of 
President Bush's trip to Mexico and Central America in 2007. 
During that visit, President Calderon and the then-Guatemalan 
President Berger, told the President that organized crime was 
their highest challenge and they wanted to work more closely 
with each other and with the United States to confront it.
    To respond quickly to this urgent threat and to take 
advantage of this historic opportunity to improve our own 
security cooperation in the region, the President included $550 
million for the Merida Initiative in the fiscal year 2008 
supplemental request and another $550 million in the fiscal 
year 2009 regular budget request. The first year includes $500 
million for Mexico and $50 million for Central America and the 
second includes $450 million for Mexico and $100 million for 
Central America.
    If appropriated, this funding would provide equipment, 
including transport helicopters, surveillance aircraft and 
inspection equipment, and training to strengthen the capacity 
of law enforcement, judicial and corrections institutions. The 
President's request also includes funding to enhance police 
vetting and to address criminal youth gangs, money laundering 
and drug demand. The equipment and activities included in the 
President's request were determined through a comprehensive 
interagency assessment of the host nation's request by 
validation teams of U.S. experts representing all elements of 
our national security and law enforcement community.
    I want to assure the committee that if funding is 
appropriated, I will work with our interagency partners to see 
that it is utilized properly, that appropriate financial 
controls are in place, and it enhances our own law enforcement 
objectives and that the programs are operated as efficiently as 
we possibly can.
    As in other State Department managed law enforcement 
assistance programs, no funding would be provided directly to 
these countries and all training and equipment will be subject 
to end use monitoring to ensure it is used for its intended 
purpose. The background of all recipients of assistance will be 
checked for allegations of human rights violations, corruption 
and ties to narco traffickers. For aviation assets which have 
been requested only for Mexico, we made an effort to support 
airframes in which Mexico has already invested to reduce the 
need for long-term operations and maintenance support.
    Again, Madam Chairwoman, thank you for the opportunity to 
appear before you. We believe these programs can have an 
immediate positive impact on these countries' ability to meet 
these challenges and the closer bilateral and regional 
cooperation it forges will pay dividends to us well into the 
future. I appreciate the committee's interest in these issues 
and I look forward to attempting to address any questions you 
may have. Thank you.
    [The statement of Mr. Johnson follows:]
                 Prepared Statement of David T. Johnson
                              June 5, 2008
    Madam Chairwoman, Congressman Souder, and other distinguished 
Members of the committee, thank you for the opportunity to appear 
before you to discuss the Merida Initiative and how it will help combat 
transnational criminal organizations that threaten security in Central 
America, Mexico and the United States. I am pleased to appear before 
you with Acting Assistant Secretary Paul Rosenzweig of the Department 
of Homeland Security's Office of International Affairs since 
confronting these challenges requires complementary efforts on both 
sides of the border and the cooperative efforts of all agencies whose 
mission focuses on America's security.
    With increased globalization, we have seen further proliferation of 
illegal migration, narcotics and weapons trafficking, violent gangs, 
laundered money and counterfeit goods--all phenomena whose effects 
spill across national boundaries. Over the past decade, drug 
trafficking, transnational gangs, and other criminal organizations have 
grown in size and strength. They aggressively seek to undermine and 
intimidate government institutions in Mexico and Central America, 
compromise municipal and State law enforcement, and weaken governments' 
ability to provide public security and advance the rule of law.
    The growth of criminal organizations is a major threat. They 
corrupt the police, judiciary, and prison systems, and fuel a growing 
popular demand for governments to respond to the threat posed by them. 
The effects of this growing problem are also readily apparent in the 
United States in the form of gang violence, crime, and trafficking in 
illegal drugs and persons--all of which threaten our own national 
security and impose mounting economic costs.
    The United States Government recognizes that working by ourselves, 
we cannot successfully confront the significant threat transnational 
criminal organizations pose to ourselves and the countries in our 
hemisphere. Because of that fact, in the case of youth gangs, the State 
Department, in partnership with the Departments of Justice, Homeland 
Security and others, is implementing in Central America, a 
governmentwide strategy that includes prevention programs, law 
enforcement capacity building, joint law enforcement operations, and 
other bilateral and regional anti-gang programs.
                             affects us all
    As we see in Mexican border cities such as Tijuana, each horrific 
act of violence seems to be surmounted by the next. I spent time 
earlier in my career as a Vice Consul at the U.S. Consulate General in 
Ciudad Juarez, across the border from El Paso, Texas, and have a strong 
appreciation of the close relationship between the United States and 
Mexico, especially in our border communities. The level of violence has 
reached such drastic proportions in some areas of Mexico, including 
along the border, that combined Mexican military and police units have 
been deployed to restore order.
    In the Tijuana area, border violence has increased significantly in 
the past 6 months. U.S. Customs and Border Protection (CBP) agents have 
suffered rock throwing incidents, forcing them to respond with crowd 
control tactics. We are painfully aware of the terrible day in January 
when Border Patrol agent Luis Aguilar was killed in the line of duty by 
a vehicle believed to be carrying drugs in the Imperial Sand Dunes 
Park. Mexican authorities, with the assistance of the Immigration and 
Customs Enforcement (ICE) attache office, quickly responded in that 
case, arresting a suspect who has been charged in Agent Aguilar's 
death.
    There has, indeed, been a wave of attacks and assassinations all 
along the border, including an incident in which a Tijuana policeman 
was killed in his home along with his wife and 9-year-old daughter, as 
well as a shootout involving some 100 soldiers and drug traffickers 
near a kindergarten. In Ciudad Juarez, there have been more than 300 
drug-related murders so far this year, surpassing the total for all of 
last year. The chief of police resigned after his deputy was 
assassinated, and several members of the police force on a drug 
trafficker ``hit list'' were murdered. Now, the acting police chief is 
a military officer and joint military-police units patrol the city 
streets.
    Another major concern on both sides of the border is the threat of 
methamphetamines abuse and trafficking. Because of increased law 
enforcement efforts and the Combat Methamphetamine Epidemic Act of 
2005, most U.S.-based ``super'' meth labs, that is, labs capable of 
producing more than 10 pounds per cycle, have moved from the United 
States to Mexico. Partly as a result, methamphetamine abuse has 
increased in border areas, especially in Tijuana. The government of 
Mexico has taken decisive steps to address this menace by outlawing 
imports of the precursor chemicals used to make methamphetamine, even 
for legitimate use.
    The leaders of Mexico and Central America are already working to 
beat back violence and crime for their own citizens and for ours, and 
they have turned to us to join them--as partners.
                                 mexico
    In Mexico, President Calderon has acted decisively. He has 
reorganized the Federal police, put new and additional resources in the 
hands of his security services, deployed military units to support 
police operations, focused on rooting out corrupt officials, arrested 
major crime figures, sought fundamental legal reforms in the criminal 
justice system, and extradited a record number of drug kingpins and 
other criminals to the United States. The determination and commitment 
shown by the Calderon Administration is historic; and the early results 
impressive.
    However, President Calderon has recognized that leadership and 
political will are not enough; he needs greater institutional and 
material resources for both near-term success and long-term 
institutional change. In an unprecedented step, he has asked the United 
States to launch a new partnership with Mexico and to help him 
strengthen Mexican law enforcement, public safety, and border security 
to defeat the drug money-fueled criminal organizations. The Merida 
Initiative is not a ``traditional'' foreign assistance request. It is, 
as our joint declaration called it, ``a new paradigm'' for security 
cooperation.
                            central america
    At the same time, the nations of Central America have committed to 
collective action to address common security concerns. Through the 
Central American Integration System (SICA), these governments have 
expressed their political resolve to join forces to strengthen regional 
security; however they lack sufficient tools and capacity to execute 
such will. Despite these challenges, national authorities remain 
committed to the fight, collaborating with each other as well as with 
the United States. As with Mexico, they have increased the resources 
and other elements devoted to transnational security and enforcement 
efforts.
                   beginnings of the merida intiative
    It is in our own national interest to support these efforts. Over 
the past several months, one of the President's highest priorities has 
been the Merida Initiative, a regional security cooperation initiative 
which, if funded, will greatly enhance our anti-narcotics and law 
enforcement efforts with Mexico and the seven Central America 
countries. The Merida Initiative grew out of conversations in 2007 that 
President Bush had with Mexican President Calderon in Merida, just 
after speaking with then-President Berger of Guatemala. He heard the 
same concerns from both that crime is the No. 1 challenge and that they 
wanted to work more closely with each other and with the United States.
    After much consultation with Mexico and Central America, last 
October President Bush asked Congress for an initial sum of $500 
million for Mexico and $50 million for Central America in fiscal year 
2008 supplemental funding to support the Merida Initiative. In the 2009 
budget, the administration has requested an additional $450 million for 
Mexico and $100 million for Central America for this initiative.
    This funding request is part of over $1.4 billion that the 
administration plans to request for this multi-year initiative. It will 
provide equipment, such as transport helicopters, surveillance 
aircraft, and information technology, and it will assist in our mutual 
efforts to break the backs of criminal organizations. The initiative 
will also support capacity building as well as police and judicial 
reform efforts already underway in Mexico and Central America.
                   merida initiative program elements
    Overall, the Merida Initiative, if approved, will focus on three 
areas: Counternarcotics, Counterterrorism, and Border Security; Public 
Security and Law Enforcement; and Institution Building and the Rule of 
Law.
    The Merida Initiative will provide support to Mexico and Central 
American countries based on specific requests, and after having had our 
experts meet to determine needs. If approved by Congress, the Merida 
Initiative will provide Mexico:
  <bullet> Helicopters and surveillance aircraft;
  <bullet> Non-intrusive inspection equipment, ion scanners, canine 
        units for Mexican customs;
  <bullet> Technologies to support collecting information for criminal 
        law enforcement;
  <bullet> Technical advice and training to strengthen the institutions 
        of justice--vetting for the new police force, new offices of 
        citizen complaints and professional responsibility, and witness 
        protection programs;
  <bullet> Programs to support Mexico's efforts on demand reduction, 
        anti-corruption efforts and human rights; and
  <bullet> Programs to support Mexico's efforts to enhance their border 
        management process.
    Our initial proposal for the Central America part of the Merida 
Initiative includes over $25 million (out of the total $50 million 
proposed) to help our partners fight criminal gangs. The Presidents of 
Central America have recognized the need to address common threats 
regionally; our goal will be to achieve a fully coordinated response to 
these transnational threats. For Central America, if approved, the 
Merida Initiative will provide funding to:
  <bullet> Strengthen the region's ability to defend its borders 
        against traffickers and to interdict criminals;
  <bullet> Improve investigation and prosecution of dangerous gang 
        members;
  <bullet> Fight arms trafficking through tracing mechanisms and 
        training for law enforcement; and
  <bullet> Provide training in prison management, courts, prosecutors, 
        and communities to help strengthen justice systems.
    In Central America, the package seeks to address citizen insecurity 
by giving these governments the tools they need to more effectively 
address criminal gangs, modernize and professionalize police forces and 
reform the judicial sector to restore and strengthen citizen 
confidence.
    To address the proliferation of gangs and gang violence, through 
the Merida Initiative, we will implement all five elements of the U.S. 
Strategy to Combat Criminal Gangs from Central America and Mexico: 
Diplomacy, Repatriation, Law Enforcement, Capacity Enhancement, and 
Prevention. Under this comprehensive strategy, the U.S. Government is 
working with Central American governments to combat transnational and 
other gangs through both prevention and enforcement.
    The gang prevention program will increase security by providing 
thousands of at-risk youth in targeted urban ``hot spots'' with 
positive education, training, and job opportunities, thereby reducing 
the risk of gang recruitment, crime, and violence in the region.
                          pending legislation
    I want to express my thanks to the Congress for showing support for 
these efforts by including Merida funding in both fiscal year 2008 
supplemental bills that have been passed by the House and Senate. We 
look forward to continuing to work with Congress so the most effective 
package is included in the final bill. Both the governments of Mexico 
and the United States believe that there is value added by providing 
many of these programs and assets, especially air assets, since this 
will allow us to enhance law enforcement as well as military 
cooperation.
    As for the Caribbean, we share congressional concern that drug 
trafficking represents a serious threat to the region. In the last 2 
years the island of Hispaniola has become the principal transit point 
in the Caribbean for drugs headed to the United States and Europe due 
primarily to a dramatic rise in drug smuggling by small aircraft from 
Venezuela. We will continue to look for ways to improve security 
cooperation in this region--and to facilitate cooperation among the 
countries of the Caribbean.
    We will be working with several U.S. Government agencies to 
implement the Merida Initiative, once the supplemental appropriation is 
completed. We intend to work closely with DHS and DOJ to enhance the 
security of our Nation's border through port, airport and border 
security programs; through law enforcement training, crime prevention 
and police modernization; through financial intelligence gathering to 
counter money laundering; and through improving case tracking and law 
enforcement database management.
    Thank you for your time and I would be happy to address any 
questions you may have.

    Ms. Sanchez. I thank the witnesses for their testimony. I 
will remind each Member that he or she will have 5 minutes to 
question the witnesses. I will now recognize myself for 
questions.
    So here is the problem. As a Californian, we have obviously 
a border with Mexico in particular that has been heating up 
lately because of these smuggling and drug wars and because of 
the clampdown that has been going on by President Calderon's 
administration. Believe me, I think all of us are very 
appreciative of the fact that that government has taken on a 
very difficult thing to do, and that is to try to eliminate, or 
winnow down what is happening at the border. But it seems to be 
getting worse. I mean, worse to the point where my family has 
several properties just south of the border, and we are asking 
each other, do we really go down, given some of the indications 
and some of the violence that has been going on in the Baja 
California peninsula? My constituents are asking the same 
thing.
    So when I look at this Merida Initiative, it concerns me 
that we have a Department of Homeland Security who is on the 
border, is making the relationships with their counterparts 
across the border. Let's talk right now about Mexico, for 
example, because this is a big concern for me. It seems to me 
if we really want to hamper down what is happening at the 
border, that the Department of Homeland Security should be, if 
you will, in the driver's seat of the situation. But the way I 
view the Merida Initiative is that somehow State will be 
controlling the funds, will be controlling the issues, will be 
controlling where the moneys go, will be, you know, and that 
the Department of Homeland will be begging for funds from State 
for this initiative.
    So I would like both of you to comment on that, if you see 
that or if there is really this interagency coordination going 
on because I don't see it on paper.
    Second, I would like to ask Mr. Rosenzweig, if you had 
control of the money rather than State, what would be the 
specific places that you would initially put that money to work 
to stop what is really intimidating to many of our citizens on 
our border, and that is this whole violence that is going on 
across the southern border?
    Mr. Johnson. Madam Chairwoman, if I could start by 
addressing, I think, part of your question.
    This is a foreign assistance program. So it is appropriated 
under the provisions of the law that provide foreign assistance 
and is coordinated by the State Department. But we have engaged 
all aspects of our national security and law enforcement effort 
in this. The elements of the Justice Department as well as DHS 
have played a very strong role in this effort and including our 
Department of Defense because a significant portion of the 
proposal actually provides equipment for the Mexican military.
    This is a fully engaged interagency process because it is a 
broad spectrum problem. It is an organized crime problem, but 
it is fueled by drugs. So DEA, of course, has a significant 
role to play.
    You mentioned the several issues and so did Paul in his 
testimony where the individual elements of DHS also have strong 
roles to play. I would caution against looking at a kind of a 
single silver bullet here to try to solve the violence problem 
in Mexico. I think the comprehensive solution that the 
interagency has come up with and devised in response to the 
open invitation of President Calderon in particular is going to 
be the most effective way to seek to address this problem in 
the long run.
    If you look back over time in Mexico, you can say that 
there was by some Mexican law enforcement agencies an effort to 
even accommodate some of this commerce and elicit drugs. We 
have an administration now that is willing to confront it and 
to deal with it, to make significant steps in improving the 
rule of law and reforming institutions in Mexico. I think will 
put us on a significant different footing than we have been in 
the past.
    I can't predict for you that the level of violence will 
drop off markedly in the very short term. But I think--I am 
comfortable telling you that I believe that with the provision 
of this equipment and this training and the reform programs 
that it means for Mexico, we can look forward to a Mexican 
neighbor that is much more grounded in the rule of law and is 
safer for us in the long run.
    Ms. Sanchez. Well, I would just say to you, Mr. Secretary, 
that the people in California and Texas and Arizona can't wait 
for the long term. The violence is getting out of control and I 
hear it from my colleagues on the border States all the time. 
So you know, you have to do short-term things, you have to do 
long-term things. When I see this initiative in writing, it 
worries me that the moneys are not going operationally to 
confront what is a real threat on our southern border. Mr. 
Rosenzweig, will you comment to if the moneys were more in your 
lap, what would you do with it?
    Mr. Rosenzweig. That is quite a hypothetical. As you know, 
the funding mechanisms that Congress has chosen or--are the 
international narcotics funding that is operated by the 
Department of State. I would say at the outset that throughout 
the world when DHS goes to do training and technical assistance 
missions for foreign governments, we often look to our partners 
at the Department of State for assistance and funding of this 
nature, whether it is in the southern border region under the 
Merida Initiative or training that we do in Southeast Asia 
about human trafficking.
    I think that, from our perspective, it is important to 
understand that there are many pieces, as David said, to this 
puzzle. Certainly much of what we need to do in South America, 
in Mexico and Central America is work that is outside of DHS's 
competence.
    Enhancing the prosecutorial structures of our neighbors and 
their ability to prosecute crimes, that is something that the 
people of the Department of Justice know a great deal about and 
we know nothing about. Likewise, some of the military training 
that will go to the Mexican military is something that is 
completely outside of our particular competence.
    So let me state it in a positive way by saying that the 
types of things that we want to do, that we think we can 
contribute to and that if funded and pass through, we will do 
are things like purchasing for Mexican Customs nonintrusive 
inspection equipment and providing them training on how to use 
it. It is a kind of 2-week training program and there will be 
some after-installation assistance. Each of those machines is 
quite expensive. They run in the million-dollar range. So how 
many we can provide, how much training we can provide is a 
function of how much you appropriate or Congress appropriates, 
and how much of what you appropriate gets assigned to this 
particular task.
    Similarly, one of the proposals we have put forward is to 
provide training to vetted bulk cash smuggling units which are 
groups of vetted law enforcement officers who ICE goes down and 
talks to and trains on how to identify bulk cash couriers and 
how to interdict them more effectively. When we have given this 
training around the world, it has generally proven very 
effective. The Central American area is a well-known transit 
point across the isthmus for drug money going north and south, 
and that would be an ideal opportunity for us.
    So I could perhaps go on for a great deal of time because 
there is so much we could bring to the table, but I certainly 
don't want to leave you with the impression that we have all of 
the answers because we don't. Many of our colleagues in the 
interagency do as well.
    Ms. Sanchez. Thank you to both of you on that. If you 
would, Mr. Rosenzweig, I would love to have you give us a list 
of those things that you believe Department of Homeland 
Security could do. Again, for me the emphasis is a dire one. I 
mean, when Californians are not going to Mexico because they 
are afraid of the violence going on, that creates an economic 
instability south of the border which creates more immigration 
problems for us and many more issues going on.
    So, you know, we are an economy that is so connected. Right 
now we are really seeing the effects of a real fear of 
violence, or even more importantly, more violence and it is 
spilling really over onto the American side of the border.
    I would now like to recognize my Ranking Member for 5 
minutes, Mr. Souder.
    Mr. Souder. Thank you. I feel that we have only partially 
laid out the problem.
    Mr. Johnson, what--other than black tar heroin, I know in 
the meth data some of that is used in Mexico, just rough 
ballpark, taking in 10 percents, how much would you guess 
Mexico and for that matter Central America is a transit zone as 
opposed to a consuming zone?
    Mr. Johnson. I think that Central America is not 
exclusively but very largely a transit zone. Mexico is becoming 
a consuming country as it grows a middle class. That has become 
part of worldwide phenomenon where people get more money and 
they start to consume things that they shouldn't and in 
addition to things that they should. I wouldn't know how to 
quantify that at this point. But as I mentioned in my 
testimony, we are in the 90 percent-plus range of the cocaine 
coming into the United States coming from Mexico. The amount of 
marijuana coming from Mexico into the United States is 
significant for a reason that is usually underappreciated.
    While most of the marijuana consumed in the United States 
is actually produced here, the Mexican organized crime groups 
or some of--they are operating some of the production here, and 
in addition, they are using this as a cash cow to support their 
operations in Mexico. Something the Mexicans really have 
brought our attention to that we need to focus and to give 
credit where it is very much due, CBP and the border patrol 
have very much focused on this along with the U.S. attorneys to 
focus on even relatively small shipments because it has been 
disassembled and then reassembled in the United States. The 
organized crime groups kind of figured out earlier how to get 
around some of our threshold levels.
    We have revisited that in consultation with the Mexican 
attorney general so that we can focus more clearly on this. But 
it is a problem that we are working. On the meth side, 
methamphetamine, the large labs are now mostly in Mexico and 
not the United States. On the positive side, Mexico has made 
some extreme steps in confronting the precursor issue and has, 
in fact, banned all usage for legitimate as well as 
illegitimate purposes of the precursors in Mexico, requiring 
their--the people who have the common cold there to use a 
different formulary.
    Mr. Souder. I think when you go through what you just did, 
I think one of the most important things for the American 
people and the people of Mexico, and, for that matter, Central 
America, to understand is, this isn't the United States coming 
in, trying to help address domestic problems in different 
countries, that, in fact, the problem has grown and caused the 
turmoil in most of these countries just as it did in Colombia, 
Afghanistan, Bolivia, Peru, to some degree, Ecuador, because of 
an American and European--but in the case of Mexico, mostly 
American drug habits. For those who say this is American 
interventionism or in America say, why are we trying to deal 
with Mexico?
    Look, we aggravated the problem. Therefore, if Mexico is 
willing to work with us, we have an obligation to work with 
them because we have exported our problems to them and that 
this kind of super-nationalism is not understanding the basic 
phenomenon here. In that, there is also a difference--and the 
reason Homeland Security becomes critical in this is the 
difference between Afghanistan, Colombia and other places is, 
they don't have a border. You don't just go back and forth 
across to Afghanistan and Colombia. Therefore, it is essential 
that we try to work the border side. Yet, another challenge 
here is that--and this is when we are coming in at this scale, 
respecting each country's desire and mix--well, one other 
thing.
    In homeland security, when we look at this committee and 
you think of the Department of Homeland Security, people think 
of it as a picket fence border. But in fact, the Coast Guard is 
down in the Caribbean, down in the eastern Pacific and that is 
part of the Department of Homeland Security. ICE investigations 
with CBP Air are all the way down in Colombia. They are all 
over. The Department of Homeland Security is not border 
exclusive.
    So those things are important to get out as we talk about 
the Merida Initiative. Now, in Colombia and in Bolivia and in 
Peru, we had the same kind of basic dilemmas where you see the 
violence and you see the transit and all this type of thing. 
But one of the things we early on invested in, whether it was 
the Colombian national police, the Uma Parz in Bolivia and 
others is we invested in the law enforcement, getting vetted 
units, getting training, making sure that they had adequate 
pay. We even assisted in the pay. It is partly, do you cutoff 
the head of the big groups, go after the big labs, go after the 
big networks, which we have been trying to do, or provide them 
helicopters and technical equipment, what we have done, or in 
fact, how do we deal with this border question? Because the 
violence is right along our border. It is spilling over in both 
directions. Some of that appears to be woefully underpaid 
police on the other side who are intimidated, who lack 
protection, who when they try to enforce the law along the 
border, and is there anything in the package that is responding 
to that portion or is the package too small because we need to 
go after the big pieces of equipment? But what is actually 
being done as it relates to the fact that unlike all our other 
narcotics efforts, this is right along our border? If I could 
have each respond.
    Mr. Johnson. I think Paul can probably respond for some 
individual programs. But if I can respond to a couple of things 
that you mentioned.
    I mean, the law of concentric circles really applies here. 
This is right--this is not just right along our border, but it 
is also well into Mexico. This is an opportunity to give us a 
real defense in depth, not just right at the border, but 
because the elements of DHS and our other law enforcement 
agencies are both on the border on our side but they are also 
working with their counterparts in Mexico City. We already have 
a program in Mexico City funded at the level of $37 million per 
year on law enforcement assistance. This initiative gives us 
the opportunity to greatly expand that. We have some success 
stories already with this nondestructive testing equipment, 
intrusive surveillance, vetted units that we are going to seek 
to build on here.
    So I think we are building on a program which has already 
begun. On the investment in law enforcement, a significant part 
of the training here is for training for law enforcement. It is 
to provide Mexico with the ability to vet their entire Federal 
police force in order through polygraphs and through background 
investigations so that they have a greater reliance on 
integrity of their Federal police force. But I don't want to 
give you false assurances here. What this doesn't provide 
funding for, and what this doesn't target is the State and 
local people. Those are the faces that many people see at the 
border. I think in a second wave, if you will, that is 
something we will want to talk to the Mexicans about.
    But this is a very big issue. It is a big country. So I 
think the plus-up that we are talking about here will give us a 
substantial effort in order to seek to address the problem.
    Mr. Rosenzweig. Let me answer your question in kind of 
three parts. The first is to agree with you completely that 
what we have come to understand at the Department of Homeland 
Security is that homeland security, in fact, begins overseas. 
We have more than 2,000 people from our Department stationed 
overseas in an operational capacity on a daily basis. Roughly 
30, 35 percent of those are in Canada, Mexico and the 
Caribbean, precisely because those areas are the ones that are 
closest to the homeland and thus--I like David's phrase, 
concentric circles. There is a concentric circle closest to us. 
But I often say, a border is like a coin. It has two faces. 
Anything that happens on one side of the border, one side of 
the coin, affects the other face as well. We have, as you know, 
already begun a number of programs cooperatively, and I will 
focus here on the southern border, with our Mexican 
counterparts that already give us a good foundation.
    The best program, the border enforcement program that we 
have started, the OASISS, the operation against smugglers 
program, both of which are cooperative programs in which we 
work hand-in-hand with our Mexican counterparts.
    You mentioned earlier a new one that is just starting up, 
the Armas Cruzadas, which is an ICE-operated program to work 
against the flow of guns southward into Mexico. That is going 
to require cooperation with ATF and with our Mexican 
counterparts. What Merida will do--and this is the third part 
of my answer--is actually build on those foundational 
relationships and expand them by allowing us to provide better 
training, better technical assistance, more equipment and--this 
is the hardest part to quantify--but and build relationships 
that are sustainable in a long-term way for a long time.
    The U.S.-Mexican relationship has reflected a great deal of 
tension because of the nature of our border and the nature of 
our history. This, from our perspective, from the perspective 
of CBP, ICE, border patrol folks on the ground represents a 
unique opportunity to work in a cooperative way, no longer 
pointing fingers at each other across the border, but to ramp 
up in literally a stepped function the degree of our 
cooperative relationship. If we can do this, it will represent 
a significant opportunity for us.
    Ms. Sanchez. I will now recognize Mr. Langevin for 5 
minutes.
    Mr. Langevin. Thank you very much, Madam Chair. Gentlemen, 
thank you very much for your testimony today. We certainly all 
have a deeper appreciation of how difficult this problem is to 
deal with. The size and the scope of the drug trade is 
obviously troubling. We are all frustrated, it seems in our 
ability to significantly cutoff the drug trade. I, for one, 
think that this Merida Initiative has great potential, and I 
look to support it.
    I do have some questions, mainly focused on coordination, 
planning and implementation on the one hand as well as training 
support on the other side. So if you could answer these 
questions in the time allotted. Under the Merida Initiative, 
DHS and its components would provide a significant amount of 
the assets and technical expertise. Because of the large 
investment DHS would be making, it is obviously extremely 
important that the Department is involved at every step of the 
planning and implementation of the Initiative.
    So my question here is: Are you satisfied with the level of 
involvement that the Department has had in the formulation of 
the Merida Initiative? What can be done to improve 
communication channels among all the different departments 
involved in administration of the Merida Initiative? Would it 
be beneficial to have an interagency coordinating body at the 
helm of the Merida Initiative? If so, what would it look like?
    On the training part of it, the Merida Initiative obviously 
calls for the delivery of major aviation assets, inspection 
equipment, IT, hardware from CBP, ICE, the Coast Guard and US-
VISIT. So will the process for procuring and delivering these--
what will, I should say, the process of procuring and 
delivering these assets to Mexico and Central America be? Will 
any private contractors be used to help deliver the training 
and the technical expertise needed to actually operate the 
equipment since obviously the equipment is really going to be 
only as effective as those who are actually using it? If you 
could answer those questions.
    Mr. Rosenzweig. Why don't I try on the first one, and I 
will let David answer the first one in part and most of the 
second one about the process for procurements since he will 
probably manage most of that.
    Asking someone who participates on a day-to-day basis in 
the interagency process how he likes it is a bit like asking 
for the self-assessment of a marriage or something like that. 
There are ups and downs. But by and large, it has been quite 
cooperative. To be sure, there are aspects of what DHS would 
want to do that are not going to be the highest priority in the 
interagency community. Equally so, however, we are working hard 
with our interagency partners to prioritize this. To a great 
degree, how much we will do will depend a lot on how much 
funding we get overall. So the interagency process becomes very 
easy if the pie is very big. It becomes harder as scarce 
resources are competed over. That is the nature of the beast, I 
am afraid. I certainly anticipate that going forward. There 
will be close coordination on an interagency basis in setting 
those priorities. Ultimately, though, at least as currently 
structured it is INL money that is being funded, and INL has 
its own sets of procedures in the end to distribute those.
    Mr. Langevin. So do you need, though, an interagency 
coordinating body at the helm of this Merida Initiative to make 
sure that, you know, it stays on track and you have the 
cooperation that we need to go forward to make the program 
effective?
    Mr. Rosenzweig. The existing processes will, I think, have 
to suffice at this point. I can't envision the creation of a 
formal coordinating structure at this point. So the existing 
processes will no doubt provide us a venue for providing the 
input we want.
    Mr. Langevin. Thank you.
    Mr. Johnson. Congressman, I would just add one thing to 
what Paul said. I think there actually has been an 
extraordinary degree of cooperation among the interagency law 
enforcement and national security team on this. Working through 
the initial assessment, working through how the implementation 
is to be done. I am, as someone who is the veteran of some arms 
control interagency groups, I have kind of marvelled at how we 
see a common purpose and we are working together. So I am 
pleased.
    Now the--Paul is right though. This is a foreign assistance 
program and it is not INL money. It is the Secretary of State's 
foreign assistance account. So ultimately, she has to make 
those, you know, end-of-the-day determinations. But her charge 
to me is to work in full cooperation with the entire 
interagency community. Where the arguments really tend to come 
down are between law enforcement agencies rather than between 
me and Paul.
    So it is a matter of dealing with the economic problem of 
scarcity, which always exists. But I think we have done a good 
job thus far. When and as we are provided with the appropriated 
funds, we intend to make whatever changes are required because 
of that, but to do it working as a team there as well.
    In terms of the acquisition process, this will be done the 
same way government procurements are done in other projects as 
well, if possible on a competitive basis. If there is indeed a 
sole source which is argued for because of the unique nature of 
equipment, we will do that. But we will sharpen our pencil just 
as hard as we can because we want this money to go as far as we 
can make it go. There will indeed be private sector teams 
involved where appropriate, particularly on the training for 
highly technical equipment, so that the equipment can be 
operated effectively.
    At the same time we will be bringing in those, such as DHS, 
who operate the similar equipment in the United States so that 
they can build those relationships and profit from the data 
that is generated. Thank you.
    Mr. Langevin. Thank you. I yield back.
    Ms. Sanchez. Mr. McCaul from Texas for 5 minutes.
    Mr. McCaul. Thank you, Madam Chair. I want to thank the 
witnesses for being here today.
    In my judgment, the situation at the border, U.S.-Mexico 
border, presents an imminent threat to the security of this 
Nation. Before running for Congress, I had served in the 
Justice Department. In the U.S. Attorney's office, I was the 
chief of counterterrorism and I had a large portion of the 
Mexican border in my jurisdiction. Even then we could see the 
threat from the drug cartels controlling the routes into this 
country, exporting the drugs, the human trafficking.
    In the post-9/11 world, this threat increased in terms of 
what is coming into this country. I think we have done a lot 
but I think the best defense is a good offense sometimes. I 
think if we can take this fight to the drug cartels directly 
through a military strategy, that that will get to the route 
cause of so many of the problems that we have on the border.
    Congressman Cuellar and I went down to Mexico City on a 
Homeland Security delegation, met with President Calderon, and 
I was struck by the sincerity of the political will to actually 
get something done in terms of security. His dedication of 
30,000 troops to the border is significant, and he asked for 
our assistance.
    At the same time we have law enforcement on our side who 
are outgunned and outmanned. On the Foreign Affairs Committee 
on which I serve, we marked up this initiative, and I had an 
amendment that will provide equal funding for law enforcement 
on this side of the border, primarily through the DOJ process, 
Operation Streamline and other programs. But I have two 
questions, one obviously to DHS, one to the State Department.
    What is DHS's role in all this? It seems to me that--and 
Madam Chair, I hope this comes through this committee so we 
have a chance to mark this up and show some oversight on this 
initiative. But it seems to me that we ought to be also talking 
about providing funding to the Department of Homeland Security 
to provide a more comprehensive border security strategy on 
both sides. You know, if we can hit the drug cartels on the 
Mexican side and then provide the resources necessary to defend 
us, defend our side of the border, in my view, that is the best 
strategy. If you wouldn't mind commenting on that.
    To the State Department, you know--this isn't new. We have 
done this before. To some extent, what we did in Colombia is 
very similar to what this plan is. If you could, Mr. Johnson, 
talk about to me about the package for anticorruption. A lot of 
my constituents are concerned about the corruption in Mexico 
and how this would be dealt with. Also what type of metrics you 
would use to quantify success here. We were successful in doing 
this in Colombia. It seems to me if we are doing this right we 
can be successful in this initiative as well.
    Mr. Rosenzweig. I couldn't agree with you more that our 
approach to the border requires a cooperative relationship 
across it. We have, through operational programs that I 
described earlier BEST, Armas Cruzadas, OASISS, begun doing 
that often in cooperation with our Department of Justice 
colleagues. We run--our ICE colleagues run many cross-border 
counternarcotics operations in conjunction with DEA. Our ICE 
colleagues work with ATF on cross-border firearms trafficking 
as well.
    To the extent that you are speaking about operational 
activities, that funding comes out of our existing 
appropriations, DHS's existing appropriations. Like any good 
bureaucrat, I can always use more. Send more, and we will put 
it to good use.
    Mr. McCaul. Can I follow up? I would like your specific 
recommendation. If this committee decide to authorize more 
funding for this side of the border for Federal law enforcement 
and State and local, what your proposal would be for that 
funding. I will yield back.
    Mr. Rosenzweig. Can I get you a--I mean, obviously we have 
of a long detailed wish list of things ranging from operation 
firewall, which is an ICE counter-arms program that could grow 
more funding. OASISS only covers portions of the border now. 
With enhanced funding it could operationally fund--be extended 
from Brownsville to San Diego. Those sorts of things. You know, 
formal requests for money have to be cleared through the Office 
of Management and Budget.
    Mr. McCaul. I understand. But if you could get back to me. 
Mr. Johnson, I am running out of time, but I would like to get 
your response to the corruption issue.
    Mr. Johnson. Yes. Mr. Congressman, on the corruption 
question we are highly focused on that. A significant element 
of the first-year proposal for Mexico will allow us to train 
Mexican law enforcement so that it can do its own polygraph and 
background investigations ultimately for the entire Mexican 
police force. Initially, we will be building vetted units so 
that we are more sure of who we are dealing with on the 
informational side. But we will be moving that process as 
rapidly as we can, assisting the Mexicans in their own vetting 
process. But I think the larger issue is the real reform of the 
justice system in Mexico. There is a portion of this which also 
provides for a citizen complaint system so that there is a 
greater transparency and a greater trust in the rule of law in 
Mexico. We have a broader program which is changing in 
cooperation with the political courage that President Calderon 
has shown, changing their justice system so that it is 
adversarial and open rather than based on submission or briefs 
and a decision behind closed doors so that the Mexican people 
and indeed we can see justice being done.
    There is already a pilot program and a shift has already 
been done in the Mexican State of Chihuahua since the first of 
this year. We believe that--that type of openness and 
transparency and real change in the rule of law in Mexico holds 
our best hope for the long run. I think that will show your 
constituents the ability to see a less corrupt----
    Mr. McCaul. The end-use monitoring in this package was used 
in Colombia successfully?
    Mr. Johnson. Yes. It will be the same type of end-use 
monitoring.
    Mr. McCaul. Thank you, Madam Chair.
    Ms. Sanchez. I just wanted to let the gentleman from Texas 
know that we did request a sequential referral to this 
committee but unfortunately went only to Foreign Affairs and 
Judiciary. The parliamentarian didn't see it as being as 
important to----
    Mr. McCaul. That is unfortunate.
    Ms. Sanchez. Yes. Extremely unfortunate. Yes, Mr. Souder.
    Mr. Souder. Would you be open and our Chairman and Ranking 
Member to requesting that to be changed? It is inconceivable 
that we could be doing an initiative like this and not account 
for the border, and it not being part of an initiative is just 
inconceivable.
    Ms. Sanchez. If my friend from Indiana is asking, should 
we, in an effort together and hopefully with the Chairman and 
the Ranking Member of the full committee, ask that this be 
looked at again and ask for sequential, I would be more than 
willing. I mean, I began with the question of will there be any 
moneys coming to Department of Homeland Security? My biggest 
issue--I mean I would like to solve the whole problem. But you 
know, excuse me, we have had a drug war on our hands since 
when, before Reagan? We don't seem to be getting control of 
this.
    So you know, it has gone to the border and it is spilling 
over into the United States. We have got to stop this from 
happening. The Department of Homeland Security has to be funded 
and has to be doing this. I think it would be a great idea to 
do that sequential request.
    Mr. Souder. If I may make one other comment. I have worked 
with INL for my entire career and the Department of State on 
international. But CBP Air funds do not go through INL. The 
State Department makes a decision who gets how many on the 
ground, when money goes to a foreign government, they work with 
that. But if there is going to be involvement of the Department 
of Homeland Security, there are different funding streams and 
not all those funding streams go.
    I also find it extraordinary in Mr. Langevin's questions 
nor in your statement or my question did anybody refer to the 
Office of National Drug Control Policy. We created a drug czar 
who is supposed to be a coordinating agency. Where are they?
    Ms. Sanchez. Thank you, Mr. Souder. I will now recognize 
Mr. Green of Texas for 5 minutes.
    Mr. Green. Thank you, Madam Chair. I want to compliment you 
on hosting an outstanding hearing. Mr. Ranking Member as well, 
thank you. I thank the witnesses for appearing.
    The Merida----
    Ms. Lofgren. Very good.
    Mr. Green. Thank you. Merida plan, if you will, called such 
because it was consummated in Merida, Mexico, has evolved into 
two bills. One in the House and one in the Senate. The one in 
the Senate worth about $100 million and it includes money for 
Haiti. The one in the House worth about $61.5 million with 
money for Haiti and other countries as well. This is 
exclusively for these countries as an additional $400 million 
in the House bill and an additional $300 million I believe--
$350 million in the Senate bill.
    I am mentioning Haiti because--I know that your plate is 
full--but because this has evolved into a look at or an 
opportunity, I believe, to try to combat this problem in the 
hemisphere as opposed to isolated in one area. I just want to 
mention to you something about Haiti because I just visited 
Haiti. For those who may not be aware, Haiti has an 
unemployment rate of about 66 percent.
    The poverty rate is 80 percent. Seventy percent of the 
people live off of less than $2 a day. About 56 percent of the 
people live off of less than $1 per day. It has the highest 
HIV/AIDS rate in the western hemisphere. We have four seasons. 
Haiti has five. In addition to the four that we have, Haiti has 
a hunger season. A hunger season. When people prognosticate 
that people will be hungry and that some may perish.
    I mention this because we met with President Preval. He 
indicated what I am hearing with reference to President 
Calderon, a desire to have an assistance from the U.S. 
Government to help with the drug trafficking. Haiti is becoming 
a station, if you will, between the United States and other 
places for drug dealers to stage their activities. He has given 
the same clarion call for help, and I am very pleased to see 
that there are moneys going to Haiti to provide some 
assistance.
    We have a big problem. It is one that requires a 
comprehensive security plan that includes what you are doing 
combined with what is happening at the border itself, 
coordinated among all of the various entities that can make 
this work for us because it is not just--while I want us to 
deal with the land border, there also is the border between 
Haiti and the United States that we have to concern ourselves 
with too. We have all of this to police to protect the American 
people.
    So my question to you is, can you give me as quickly as you 
can because my time is quickly moving, some indication of how 
we are doing with the Haitian portion of what this has evolved 
into?
    Mr. Johnson. Congressman, thank you very much. The threat 
of export of--particularly of cocaine is not just in Haiti, but 
because of the behavior of the Venezuelan government in 
particular in allowing its border region to be used as a 
transit zone has affected the entire island of Hispaniola, also 
the Dominican Republic. So we have programs in both sides of 
the island to help deal with this. They are not large. The 
moneys that you mentioned that are in, I believe, the Senate 
bill that are directed to Haiti and the Dominican Republic are 
not part of the administration's proposal. So we do not yet 
have developed programs as to how those moneys might be spent. 
Anything I would say to you today would be speculative but----
    Mr. Green. Let me say this then, given that I have 19 
seconds. I trust that the plans will be developed because one 
of the great human tragedies of our time is occurring just off 
the coast of Florida in Haiti. It is a staging area now. It is 
going to evolve into more if we don't do more.
    Final comment is this: We have to deal with the movers with 
two methodologies. One, arrest, lock up, punish. But we also 
have to deal with those who are prospective movers. We need, 
Madam Chair, in some of our cities, major urban areas, some job 
programs for young people, for people who find themselves 
without opportunities and who may engage in some activities 
that I don't condone. I think you can be poor and not be a 
criminal. But it seems that poverty is attracting a lot of 
people into criminality.
    So my contention is this: It is bigger than what we are 
talking about today, although this is what we have to deal with 
today. I respect what you are doing. But this is a major, major 
concern in the inner cities of this country because the movers 
that we are dealing with today can be replaced with persons 
from areas of the country that we live in, and I think that has 
to be dealt with.
    Mr. Rosenzweig. Madam Chairman, can I just briefly? 
Congressman, I don't want to leave you with the misimpression 
that DHS is not engaged in Haiti. We have a number of people 
there, many of whom are doing precisely the counternarcotics 
strengthening already, even in the absence of the Merida 
Initiative that you are talking about, we have a substantial 
number of Coast Guard presence, ICE presence who are working in 
the region with the Haitian government. I would be happy at 
some juncture to come and give you more detail about precisely 
what we are doing there.
    As with Merida, we could always use more resources to 
provide that sort of assistance. But I wouldn't want you to 
feel or mistakenly believe that we are not as concerned about 
Haiti as you are. I have a unit that focuses exclusively on the 
Caribbean and the main place that is on their mind is Haiti 
right now.
    Mr. Green. Thank you, Madam Chair. I yield back.
    Ms. Sanchez. Thank you, Mr. Green. Then I would just 
mention that as you know, I am a big supporter of the jobs 
programs for our youth. I am very disappointed that it has been 
cut out from the supplemental and we will do everything we can. 
I agree with you, especially when we see an area like yours 
down there in Houston where it is much better for us to employ 
these youths than for drug cartels to ensnare them. So I thank 
you for bringing that up, although it is not really our 
jurisdiction here.
    Mr. Cuellar for 5 minutes.
    Mr. Cuellar. Thank you, Madam Chair. I want to thank you 
and the Ranking Member, Mr. Souder for the leadership that you 
all provided.
    When we talk about the Merida Initiative, we have to keep 
in mind, as you know, that it involves not only Mexico, but 
also Central America. We have one of the Central American 
ambassadors here with us. We have to keep in mind the big 
picture here. We appreciate the leadership that you have. This 
year is an important year for me because back about 3 years ago 
we started talking about border violence. Being from Laredo, we 
understand what has been happening. I think some of you all are 
veterans of this. We appreciate your leadership. We started off 
with an issue there in northern Laredo right across with the 
missing Americans. We had about 60 missing Americans that 
actually--some of them, you know, because they happened to be 
in the wrong place, some of them because either they or the 
family were involved, went over, across the river and never 
showed up again. Some of them did show up. But some of them 
have been missing.
    We appreciate the State Department through Ambassador Garza 
and the kidnapping task force that y'all helped set up that I 
think have finally opened up some of the investigations in 
Mexico. We appreciate that.
    But seeing that back in 2005, my office, we helped start a 
couple of things. One, we started the first BEST program, my 
office put together ICE and ATF and other folks, and I know 
that now y'all can expand that to other cities, and we 
appreciate that. But we also passed some legislation that 
established a border violence task force that I hope that y'all 
can look at. We certainly want to work with you.
    It is authorized, but like Michael McCaul said, we have got 
to do our share on this side also because it works with our 
Federal, State and local and of course our counterparts across 
the river. So we appreciate that. We also have to look at some 
of the tools that have been available to us. For example, the 
FBI Gang Intelligence Center. I think we put in $10 million 
that helps track gangs that come across the border, whether 
they are from Central America, from Mexico or U.S.-based, 
wherever they are from. We have got to look at some of those 
whether it is the border violence task force, whether it is the 
expansion of the BEST program. I know there are other programs 
up there. Or the Gang Intelligence Center that we are spending 
$10 million a year right now. We have to look at those tools.
    But the bottom line is, I am really excited because I 
actually--we started the--I guess the first initiative. We call 
it the Merida Initiative. The President is impressed and we 
appreciate that. But we actually filed House bill 502 back in 
January 2007 that--we did this because being from the border, 
we have seen this. I am glad that the rest of the Nation is 
finally picking up an issue that we have been looking at. Being 
at Laredo right at the border, we have seen this. My brother 
was a narcotics agent with the State for 25 years. He used to 
tell me, it is difficult sometimes working with the Mexican 
side because sometimes you don't know who is a good apple and 
who is the bad apple. But it is one of those things that that 
intelligence is so important to us.
    So I just want to emphasize the intelligence part of it. 
The information that you work with them because it is very, 
very, very important that we continue doing this. But I would 
ask you to do a couple of things, one is the border task force, 
the kidnapping because I mean, we started the first BEST 
program, the border violence task force. I am a big supporter 
of this Merida Initiative. But we still can't forget that there 
are still some families that still have--their family members 
are missing. So whatever y'all can do to pressure the Mexican 
side. I know I have talked to Ambassador Garza and he has done 
great. But anything that you can to do to help with the missing 
Americans, I would appreciate that you help us with that part.
    My question is, do y'all have anything or are you even 
aware of the missing Americans, Mr. Johnson?
    Mr. Johnson. Congressman, I am certainly aware of the 
effort that Ambassador Garza has undertaken, working with the 
Mexicans and working with law enforcement on this side of the 
border to bring that issue to the fore. It is not part of this 
initiative, if you will. We have not included you know some 
aspect of it. On the other hand, the types of things that are 
part of this initiative will help us build the rule of law so 
that we can support the very thing that you are talking about 
and make the border safer.
    If I could, I would like your permission to look into how 
more specifically the efforts we have here would reinforce the 
search for the missing and get back to you on that.
    Mr. Cuellar. Appreciate that. Madam Chair, thank you very 
much.
    Ms. Sanchez. I thank the gentleman from Laredo. I believe 
next on the list will be Ms. Lofgren for 5 minutes. Welcome.
    Ms. Lofgren. Thank you, Madam Chairwoman. I think this 
Initiative is an important one and I agree that there are so 
many different elements that need to be addressed. Certainly 
Mexico has done more than we have in some of these areas. I 
mean, to completely ban precursor chemicals, we haven't done 
that. Certainly, I admire their efforts to bring transparency 
and reform of their criminal justice system. I mean, that is a 
difficult thing to do and something that they are moving 
forward on. It is quite admirable.
    When you think about the number of people that have been 
lost in Mexico in the fights with the drug cartels, it is 
thousands of people have lost their lives in this fight. So 
certainly those are important efforts they are making. I 
personally believe that we have an obligation to cooperate with 
Mexico. We are interdependent with them. I mean, we share the 
North American continent with them. It is our Americans who are 
consuming the drugs moving across the northern border. But I 
want to focus--and I know it is not the only issue. But when I 
met with the Mexican attorney general last year, it was an 
issue he raised, the flow of arms south to them which is just 
completely unacceptable. I know your testimony touched briefly 
on that. But I would like to focus on what more we need to do. 
I mean, it is not just you know handguns and rifles. I mean, it 
is machine guns. It is even, you know, shoulder missiles. I 
mean, it is unacceptable. Some of it is, you know, 
interdiction. But I think we need to do a more aggressive job 
of what kind of things are available for export because it is 
making their job almost impossible. Can either one of you 
address that?
    Mr. Rosenzweig. Let me take a swing at that for starters. 
The flow of arms and weaponry southward is of grave concern to 
the Mexicans and of equally grave concern to us. The current 
American structure of law divides responsibility for arms 
trafficking. ATF is a domestic enforcement agency in the 
Department of Justice. ICE, through its authorities, is the 
investigative authority for cross-border international arms 
smuggling. They work cooperatively together since, you know, 
frankly most every domestic violation that goes south is an 
international violation.
    Ms. Lofgren. Right.
    Mr. Rosenzweig. And vice versa. Obviously in the end, the 
Department of Justice does the prosecutorial work. Amongst the 
things that could be funded under Merida that would expand our 
efforts are things ranging from nonintrusive inspection devices 
that would allow us to look inside containers more readily, K-9 
units, some of who can be trained for explosive detection which 
is effective. Expansion of ICE's training programs south of the 
border and its cooperative relationships. All of them, of 
course, I think in partnership with ATF who has a commensurate 
interest.
    But what we see kind of as the core of what we need to do 
at DHS is bring together both of the responsible U.S. agencies 
plus, I should add, the Intelligence Community. We have 
established an arms trafficking intelligence subunit at epic to 
focus precisely on this problem.
    Ms. Lofgren. If we had additional resources, would we 
accomplish more?
    Mr. Rosenzweig. Always. I mean, no good bureaucrat can say 
no. This program, there are a number of initiatives that we can 
take in terms of our weapons interdiction efforts. Cooperative 
programs with Mexican Customs, since one of their main lacks is 
lack of capacity to screen southbound traffic, as I am sure you 
know being a Californian, we don't screen outbound traffic at 
all.
    Ms. Lofgren. But these weapons are being acquired in the 
United States for transit.
    Mr. Rosenzweig. That is precisely why this is clearly an 
issue that requires a partnership between the domestic side of 
the House for finding the illegal manufacturers who are making 
the--the gun licensers or manufacturers who are making the 
sales here, linking it up to the intelligence about the cross-
border. We have found generally that the border is a great 
choke point to do the interdiction because, of course, it is 
there that any smuggler confronts some authority, in this 
instance, a Mexican one. But we want to ensure that all of the 
components are engaged. I guess one of the issues that we 
haven't discussed is, there are some pieces of the draft House 
bill, authorization bill that seem to ignore the international 
component of this trafficking and focus exclusively on the 
domestic side. So you know, in the end I imagine we will want 
to work to try and encompass all of those authorities.
    Ms. Lofgren. My time is running out. I will just advance 
the opinion that America would be safer if we used more of our 
resources on this weapons situation instead of, you know, 
chasing down and arresting busboys and nannies. I mean, it is 
just a ridiculous priority compared to the drug violence and 
the problem that we have with weapons. I think my----
    Ms. Sanchez. I believe the assistant secretary--I believe 
he has a comment for you, Ms. Lofgren.
    Mr. Johnson. Madam Chairman, if I could just make one 
point. At least in part because of the attention this issue has 
drawn because of the development of this initiative, we have 
identified $5 million in seized asset funding which has allowed 
Alcohol, Tobacco and Firearms to move forward with modifying 
their e-trace system so that it is more accessible for Spanish 
surname conventions. We have also made that database accessible 
not just in the embassy in Mexico City but in all of our 
consulates in Mexico, giving Mexican law enforcement a greater 
opportunity to use that system and that database in order to 
trace weapons that have been seized in Mexico. Thank you.
    Ms. Sanchez. Mr. Souder.
    Mr. Souder. One of the things that is unique about the 
challenge with Mexico, it is somewhat there in the Caribbean 
where it is just a water border. But because there is a land 
border, it isn't just like every other traditional 
international area that we work with. Trying to figure out how 
we handle this jurisdictionally here, how we handle it in our 
different agencies is a different challenge. I think looking at 
how we do the best teams--the IBET teams and this type of 
thing, I mean, ask, are those all run through the State 
Department?
    Mr. Rosenzweig. No, sir. Those are operational programs 
that are generally funded out of operational mission 
authorities within the Department of Homeland Security and 
likewise within Justice, ATF.
    Mr. Souder. But they work internationally?
    Mr. Rosenzweig. They work in a cooperative arrangement with 
international. We have Mexican officials who are members of--
liaison officers who are partners of our BEST teams, for 
example. We have Canadian officers as well on the northern 
border.
    Mr. Souder. The challenge here is that the funding stream 
determines how the decisions are made and where it goes 
through. In other words, if it is going directly to another 
government, it goes through the State Department. But if it is 
going to ICE and then ICE, do you fund in the IBET and BEST 
programs any law enforcement in Mexico or Canada? Do you 
provide any training? Those funds that you do, do they run 
through the State Department or are they run directly through 
you?
    Mr. Rosenzweig. Well as you said, the training and 
technical assistance funding that goes directly to a foreign 
government traditionally goes through the State Department. In 
terms of BEST and ICE, we do provide what I would call some 
collateral funding. We fund travel and funding for Mexicans to 
join us at BEST centers, for example, on our side of the 
border. We pay for that. But we don't fund--we do not fund--we 
are not permitted to fund actual operations of the Mexican 
Federal police or Mexican Customs or any of the other 
operational agencies. So the answer to your question is yes to 
a small degree, but it is generally a collateral expenditure of 
funding. It is not the be-all and end-all of the organization.
    Mr. Souder. This shows the problem we have with this 
committee is, is that unless there is some kind of 
jurisdictional overlap with international, we can't, in fact, 
impact the border much. One of my concerns as is all of us but 
Mr. Cuellar has raised it constantly, the cane and the cane is 
on both sides. But that means in order to address the cane 
issue on the Mexican side, that would actually have to go 
through State Department. We have to have some kind of a way 
that we are dealing with a unified border and cross-checking 
and so on to figure out how Homeland Security is going to 
interrelate with the State Department because I understand why 
the funding goes that direction. But we have to sort out how 
this is going to be done if we are actually going to secure our 
land border.
    Ms. Sanchez. Well, I would agree with you and I think we 
need to visit that again. When I read the Initiative, it is so 
slanted away from Department of Homeland Security that, you 
know, I can almost see it like a stepchild begging for a dollar 
or two to get something done when the reality is operationally 
speaking, this is where the rubber hits the road. So I think we 
need to think about how we can work on that together, Mr. 
Souder.
    I thank the witnesses for their valuable testimony and the 
members for their questions. The Members of the subcommittee, 
you may have additional questions for the witnesses. We will 
ask you to respond expeditiously in writing to those questions. 
Having no further business, the subcommittee stands adjourned. 
Thank you, gentlemen.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


    Questions From Hon. Loretta Sanchez for Paul Rosenzweig, Acting 
    Assistant Secretary, Office of International Affairs and Deputy 
    Assistant Secretary for Policy, Department of Homeland Security

                              June 5, 2008

    Question 1. Under the Merida Initiative, DHS and its components 
would provide a significant amount of assets and technical expertise. 
Because of the large investment DHS would be making, it is extremely 
important that the Department is involved in every step of the planning 
and implementation of the Initiative. What can be done to improve the 
communication channels among all the different departments involved in 
administration of the Merida Initiative? Would it be beneficial to have 
an interagency coordinating body at the helm of the Merida Initiative?
    Answer. The Merida Initiative was developed through a collaborative 
interagency process in which DHS has been involved from the outset. As 
the administration begins to implement the Merida Initiative, it will 
be important to continue the active and collaborative interagency 
process that has so far governed development of this Initiative. 
Although Merida Initiative funding comes from Department of State 
foreign assistance accounts, we all recognize that it is important that 
all departments and agencies involved in implementing the various 
programs are active participants in the process that determines 
implementation decisions.
    Question 2. What Department of Homeland Security (DHS) personnel 
will be used to support the Merida Initiative in Mexico? Will private 
contractors be utilized and, if so, how? Will DHS or the State 
Department be responsible for private contractors for DHS-related 
Merida programs?
    Answer. The Department of Homeland Security (DHS) will support 
Merida-related activities in Mexico through multiple components and 
offices. In Washington, DC, personnel from the Office of Policy, 
supported by component subject-matter experts, will continue to work 
with the interagency steering group to ensure the Merida Initiative is 
efficiently and effectively administered. In Mexico, personnel from 
Immigration and Customs Enforcement (ICE), Customs and Border 
Protection (CBP), and the United States Coast Guard (USCG)--as well as 
our new DHS Attache position--will actively engage both U.S. and 
Mexican partners to implement Merida-related programs on the ground. 
Though ICE, CBP, and USCG will bear a majority of DHS's responsibility 
in the actual implementation of the Merida Initiative, other DHS 
component and offices will be included when their specific expertise is 
needed. DHS will rely heavily on its personnel at the U.S. Embassy in 
Mexico as Merida is implemented.
    With regard to the role of contractors, DHS defers to the 
Department of State (DOS), which is the agency to which Merida funding 
has been appropriated.
    Question 3. As we help our neighbors to the south enhance their 
efforts to combat criminal organizations, we must also make our 
southwest border more secure. If the Merida Initiative is successful, 
what type of changes do you anticipate seeing in the way DHS secures 
the border?
    Answer. Successful implementation of the Merida Initiative will 
allow DHS to strengthen the management and implementation of border-
related programs through training, technology and equipment. DHS 
anticipates that regional cooperation with our partners will serve as a 
force-multiplier to combat transnational crime and aid in prioritizing 
resources more effectively.
    The Merida Initiative will enhance DHS abilities regarding 
communications and coordination capabilities with foreign counterpart 
agencies, through improved information sharing and relationship 
building. Increased cooperation and strengthened information sharing 
among the United States, Mexico, and Central American countries will 
produce a more rapid response on critical and time sensitive 
information addressing both specific events and organized criminal 
enterprises engaged in human and/or drug trafficking and other illegal 
activities.
    Question 4a. In your testimony, you stated that Immigration and 
Customs Enforcement (ICE) was initiating Operation Armas Cruzadas to 
combat the smuggling of weapons from the United States into Mexico. How 
would implementation of the Merida Initiative affect Armas Cruzadas?
    Answer. The Merida Initiative funding is designed as assistance to 
our southern neighbors and thus cannot legally address U.S. Immigration 
and Customs Enforcement's (ICE) domestic role in the area of firearms 
and weapons smuggling, nor can it legally allocate any additional 
resources or funding for ICE's outbound firearms smuggling efforts. 
While ICE's domestic efforts in this area cannot be funded through the 
Merida Initiative, they will certainly complement the goals we are 
striving to achieve under Merida. At the same time, some of the funding 
under Merida is designed to go to the purchase of non-intrusive 
inspection equipment for the government of Mexico, which has indicated 
that they plan to use some of this equipment to inspect incoming 
shipments for any contraband, be it weapons, bulk cash, etc. Operation 
Armas Cruzadas was launched utilizing current ICE assets dedicated to 
southwest border violence, and has not received any additional 
resources or funding for domestic and international personnel 
positions, or specialized equipment.
    Question 4b. How does ATF's Project Gunrunner relate to Armas 
Cruzadas?
    Answer. We understand that the Bureau of Alcohol, Tobacco, Firearms 
and Explosives' (ATF's) Operation Gunrunner is a domestic southwest 
border firearms violence and trafficking strategy to focus resources in 
order to combat firearms violence, violent offenders, and firearms and 
ammunition trafficking along the U.S.-Mexico border. We also understand 
that the Operation Gunrunner strategy utilizes the results of firearms 
trace information and statistics (from both within the United States 
and from our southern neighbors) to target potential domestic firearms-
related violations, such as corrupt Federal firearms licensees (FFLs). 
We respectfully refer you to ATF for additional details about this 
project.
    ICE's Operation Armas Cruzadas seeks to enhance a timely, 
systematic intelligence-sharing cycle to drive interdictions and 
investigations in an effort to identify, disrupt, and dismantle trans-
border criminal networks that smuggle weapons from the United States 
into Mexico. This initiative focuses on conventional investigative 
processes relating to cross-border smuggling organizations, as well as 
implementing an expanded rapid information-sharing conduit between U.S. 
and government of Mexico (GoM) key stakeholders.
    We believe that both ATF's Project Gunrunner and ICE's Armas 
Cruzadas are complementary and will work in tandem--as well as with the 
Merida Initiative--to stop the flow of arms southward from the United 
States. These programs all complement the government of Mexico's own 
efforts in this area.
    Question 4c. Is training or equipment provided to Mexican law 
enforcement agencies under the Merida Initiative that would affect 
Armas Cruzadas? If yes, what are they?
    Answer. DHS continues to work closely with the Department of State 
in regard to the implementation of the Merida Initiative. Some funding 
under the Merida Initiative will purchase non-intrusive inspection 
equipment for the government of Mexico, which has indicated that they 
plan to use some of this equipment to inspect incoming shipments for 
any contraband, be it weapons, bulk cash, etc. We believe that by 
working together on both sides of the border, we can improve the 
cooperation, communication, and success of both countries' efforts to 
reduce the flow of arms southward.

  Questions From Hon. Loretta Sanchez for David T. Johnson, Assistant 
   Secretary, Bureau of International Narcotics and Law Enforcement 
                      Affairs, Department of State

    Question 1. While the State Department currently has the lead for 
the administration on the Merida Initiative, the plan calls for 
significant contributions by the Department of Homeland Security. 
Furthermore, DHS has the largest presence on the U.S.-Mexico border of 
any Federal agency, and often has established working relationships 
with its Mexican counterparts. What has the State Department done to 
bring the Department of Homeland Security into the planning process for 
Merida? Does the administration have an interagency coordination and 
communication process for Merida? If so, please describe that process.
    Answer. The Merida Initiative was designed as a regional approach 
that builds on activities already underway in the region. It also 
complements ongoing U.S. efforts to stop the flow of arms and weapons, 
to confront the very serious threat of transnational crime in Mexico 
and Central America, and to reduce drug demand. We believe that 
confronting these challenges requires these efforts not just on both 
sides of the border, but among our Nation's national security and law 
enforcement agencies. The Department of Homeland Security and other 
agencies have been included in the interagency planning process from 
the beginning, including involvement in the validation teams that 
traveled to Mexico as part of the development of the Merida Initiative. 
DHS will play an important role in the implementation of Merida, which 
is expected to build on already existing relationships between U.S., 
Mexican, Central American, Haitian, and Dominican Republic law 
enforcement agencies. For example, we have consulted and coordinated 
with other U.S. agencies to identify appropriate subject matter experts 
(both U.S. direct hires and contractors) to provide the technical 
advice and training that is at the heart of this Initiative. Moreover, 
we will continue to work with our interagency partners to see that our 
foreign assistance is utilized properly, that appropriate financial 
controls are in place, that program objectives enhance our own law 
enforcement objectives, and that the projects and programs are operated 
as efficiently as possible with stringent end-use monitoring.
    The Department of State has taken the lead on interagency 
coordination, including actively engaging other agencies in the 
planning process. The Department plans to continue this process in the 
implementation phase of the Initiative.
    Question 2. When will an implementation plan that defines protocols 
and directives and coordinates efforts between the State Department and 
other U.S. Government agencies be finalized? Are other U.S. Government 
agencies involved in the drafting of this implementation plan? If so, 
which agencies and how are they involved?
    Answer. We have engaged all aspects of our national security and 
law enforcement effort in our planning and we will continue to rely on 
experience and expertise across the Federal Government during the 
program's implementation. Elements of the Department of Homeland 
Security, the Department of Justice, USAID, and the Department of 
Defense have played a very strong role in the planning stages and we 
will continue to work closely with them as we move toward program 
implementation, both in Washington and at the various U.S. embassies.
    The fiscal year 2008 supplemental requires the Secretary of State 
to submit a spending plan to Congress within 45 days of enactment. The 
bill was signed into law on Monday, June 30. The spending plan will 
also include a strategy for combating drug trafficking and related 
violence and organized crime, judicial reform, institution building, 
anti-corruption, and rule of law activities with concrete goals, 
actions to be taken, budget proposals, and anticipated results. This 
reporting requirement will be carried out in close consultation with 
our interagency partners.
    Question 3. Some have expressed concern that the Merida Initiative 
does not include adequate benchmarks to determine the efficacy of the 
program, which would undermine efforts to combat corruption or 
inappropriate activity related to Merida funding. How will the State 
Department develop benchmarks to evaluate the successes and failures of 
Merida? Will the benchmarks measure the overall success of Merida, or 
each program? Which U.S. Government agencies will be involved in the 
development of the benchmarks? Will the Mexican Government develop 
their own benchmarks to measure the successes and failures of their own 
agencies under the Merida Initiative?
    Answer. The State Department has already led U.S. interagency 
discussions on performance measurements for the Merida Initiative. We 
have developed a series of strategic goals and objectives in close 
consultation with both the U.S. interagency community as well as the 
Government of Mexico.
    The preliminary document we provided to Congress outlining these 
goals and the indicators of success will need to be realigned to 
reflect changes in the training and equipment provided to Mexico as a 
result of the congressionally approved funding level, as well as what 
the government of Mexico has acquired through its own funding since the 
President's initial request. We would be happy to share this with you 
and your staff once it has been adjusted to reflect the appropriated 
funding levels. Again, we will work in close consultation with the 
governments of Mexico and Central America, as well as the U.S. 
interagency community, to develop those indicators that we think best 
demonstrate success under the Merida Initiative.
    Question 4. Some have expressed concerns about similarities between 
the Merida Initiative and Plan Colombia. Are there any ``lessons-
learned'' that we can take from Plan Colombia and apply to the Merida 
Initiative?
    Answer. There are significant differences between Plan Colombia and 
the Merida Initiative. Plan Colombia had components, such as 
eradication and the fight against armed groups seeking to overthrow the 
state that the Merida Initiative does not address. The Merida 
Initiative is focused more on law enforcement development programs with 
the vast majority of resources flowing to civilian institutions.
    However, several important lessons can be taken from our experience 
in Colombia. First, the fight against drug trafficking and organized 
crime is not simply a matter of eradication or interrupting the transit 
of illicit goods. Organized criminal organizations today seek to 
control institutions of the state through violence and corruption. To 
address that, we are working with Mexico and the countries of Central 
America on building institutions that respond efficiently and 
democratically to the legitimate needs of communities and 
municipalities. These institutions must be transparent and accountable 
if they are to displace organized crime. Therefore, our approach with 
our Mexican and Central American partners involves attacking not only 
the leaders of organized crime, but also the financial and personal 
networks these leaders use to manage their criminal networks.
    Another lesson is the importance of working with communities to 
counter the negative influence of criminal organizations. This will 
require improved communication by authorities with communities in which 
the fight against organized crime is being conducted.
    Finally, our experience in Colombia has clearly demonstrated the 
importance of committed national leadership, as we have seen in 
President Uribe. President Calderon and his colleagues in Central 
America have also demonstrated strong leadership in confronting these 
threats.
    Question 5. With respect to the aircraft and helicopters that would 
be provided under the Merida Initiative, what is the long-term plan to 
ensure that each asset will have the parts and technical support needed 
to remain operational? Are there similar concerns regarding other 
assets and equipment, and what is the plan to deal with those needs?
    Answer. For aviation assets, which have been requested only for 
Mexico, we made an effort to support airframes in which Mexico has 
already invested to reduce the need for long-term operations and 
maintenance support. Our aircraft validation team (composed of 
representatives from State, DHS, and DOD) believes the mission is valid 
and that the aircraft will be supportable in large part because SEDENA 
(Army/Air Force), SEMAR (Navy), and SSP (Secretariat for Public 
Security) have the capability to integrate these aircraft into existing 
training and maintenance systems.
    The assistance package includes spare parts, training, and other 
logistical support to facilitate training, operations, and maintenance 
for 2 years in the case of helicopters. In developing the package, 
consideration was given to the maintenance capability in the receiving 
entity, existing infrastructure, and the experiences of the Mexican 
units that will receive the equipment. We will also continue to work 
with the government of Mexico to tailor the logistics and training 
portions of the package to ensure that we have a robust support 
arrangement in place.

                                 <all>

</pre></body></html>
